   ~~~




   PATIENT DUMPING AFTER COBRA

           s. DEPARTMENTOF HEALTH AND HUMAN SERVICES
                    RESPONSE TO COMPLAINTS





     tRVIClS'




     "Ja

OFFICE OF INSPECTOR GENERAL
OFFICE OF ANALYSIS AND INSPECTIONS
                                             NOVEMBER 1988
      PATIENT DUMPING AFTER COBRA

       s. DEPARTMENT    OF HEALTH AND HUMAN SERVICES
                    RESPONSE TO COMPLAINTS




                         Richard P. Kusserow
                        INSPECTOR GENERAL




OAI- 12-88- 00831                              NOVEMBER 1988
                          ................................. ...........  ..........................
                                                              ............. ........... .... .... ......................................
                .......................... ................. ....... ............. ..........           ...... ....... ........... .... ..




                                                TABLE OF CONTENTS


 EXECUTIVE SUMMARY

  NTROD UCTIO N

 BACKG ROU N D ........................................................................................................ 


 PU RPOSE
                                                                                                ........................................ 3

M ETHO DO LOG Y
                           ...................................................................................................... 3

FI N DI NGS     ................................................................................................................. 5


RECOMMENDATIONS .. .......... ....... ....... 


Appendix A. 
       Hil-Burton          Regulation

Appendix B. 
       COBRA Regulation

Appendix C. 
    Steps in Procedures for Response to Complaints
         of Patient Dumping

Appendix D. 
      Agency Comments
                                                                , "




                                     EXECUTIVE SUMMARY

 PURPOSE

 The purose of this inspection was to (1) assess the procedures in place at the Health Care
 Financing Administration. CHCFA), the Office for Civil Rights (OCR), and the Offce
                                                                                       of In­
 spector General (OIG) for the investigation of and response to complaints of patient dumping
 received by the Deparment; (2) determine what problems have been encountered in the inves­
 tigation and response to complaints; and (3) identify what steps can be taken to correct any dif­
 ficulties.

 BACKGROUND

This is the second of two reports issued by the Offce of Inspector General (OIG) concerning
the issue of patient dumping. The first report on this subject Patient Dumping After
COBRA: Assessing the Incidence and the Perspectives of Health Care Professionals " was
released in August 1988. It attempted to determine if the rate of patient dumping could be
measured and if health care professionals saw problems in the current process of identifying
and reportng alleged cases. During that inspection , 25 compliance reviews of hospitals were
conducted along with interviews with 88 health care professionals across the country.

This inspection assessed internal procedures for handling complaints of patient dumping. The
HHS has jurisdiction concerning patient dumping under two different statutory authorities, the
Consolidated Omnibus Budget Reconcilation Act (COBRA) of 1985, and the Hil- Burton Act
of 1946. The HCFA and OIG are responsible for enforcing the COBRA provisions, while
OCR is responsible for Hil- Burton enforcement in this area.

To date considerable criticism has been levied at the Deparment for lack of vigor in enforcing
its anti- dumping authorities. All three components have come under fire for a lack of aggres­
siveness in pursuing and taking action on alleged cases. Critics point to the small number of
cases in which penalties have been levied or action has been taken by HCFA , OIG or OCR as
evidence of a lack of commitment by the Deparment in this area.

METHODOLOGY

Interviews were held with representatives of HCFA , OCR and OIG in Washington
                                                                                    , D. C.; Bal­
timore, Marland; Atlanta, Georgia; Dallas, Texas; and San Francisco , California to discuss
current practices and initiatives in anti- dumping enforcement. In addition , OIG regional per­
sonnel reviewed case fies in Atlanta , Dallas, and San Francisco to determine time frames for
referrl and investigation ,   as well as document conclusions reached and actions taken.
FINDINGS

    Procedures for the investigation and referral of dumping complaints are relatively new
    or stil evolving. The OCR issued specific instructions to its regional offices in April
    1988. While HCFA and OIG issued interim instructions in mid- 1987 , HCFA has
    drafted new implementing instructions for the Regional Office Manual and State
    Operations Manual and OIG is in the process of preparng a section for investigating
    dumping complaints for the Special Agent Handbook.

    Coordination between the components has not been a priority in the past. Steps are
    being taken to improve this situation , including meetings at all levels between the
    components. However , such coordination alone may not suffice to avoid situations in
    which the components are taking independent actions in the course of their separate
    investigations.

   The number of complaints received by the Deparent has increased over time , from a
   total of 4 complaints received between October and December 1986 to 33 complaints in
   the same time period a year later.

   Most complaints investigated by the components to date in the three regions studied
   have been determined to be unsubstantiated. When complaints are substantiated, the
   most extreme penalties available (termination , suspension , imposition of civil money
   penalties (CMPs), or referral to Deparment of Justice) are rarely used.

   Many cases substantiated by HCFA are stil under investigation by OIG. Most cases
   referred to OCR by HCFA were deemed by OCR as fallng outside Hil- Burton.

   Resolution of dumping complaints is time consuming. In the three regions studied , it
   has taken an average of 30 days for HCFA to refer the complaint and receive results
   from the State agency; anywhere from the same day to 214 days for HCFA to make a
   formal referral to the OIG; and anywhere from 42 to 241 days for OIG to complete its
   investigation and refer the case for settlement. In the two cases where CMP settlement
   occurred, it took 177 and 214 days to reach agreement.

RECOMMENDA TIONS

   The HHS should align responsibilties of the its component agencies in order to assure
   a unified response to a single complaint, or series of complaints involving a single
   hospital. The   undertaking of three separate investigations--one by OCR , one by HCFA
   and one by OIG--results in duplicative efforts, ineffcient expenditure of resources,
   inconsistent responses, and a lengthened response time.
      The HCF A and OCR should propose legislation to better align their authorities under
      COBRA and Hil-Burton and to establish a common departmental definition as to what
      constitutes patient dumping under the relevant provisions of those. statutes.

      A set of guidelines should be developed to outline actions that can be taken in response
      to varying levels of violations.   We also recommend the use of a set of time frames for
      investigation and resolution of complaints, and the use of a screening mechanism (such
      as the State agency) to direct resources to more productive cases.

AGENCY COMMENTS

We solicited and received comments to the draft report from HCFA and OCR. The HCFA is
in agreement with all the report recommendations. However, OCR had a number of com­
ments regarding the inspection findings and was not fully supportive of the report s recommen­
dations. The OCR questioned the characterization of some of the findings, and sought to
provide additional information on OCR efforts in the area of patient dumping. Where ap­
propriate, certain statements made in the report were clarfied on the basis of these comments.

Comments to the draft report are included in appendix D.
                                       INTRODUCTION

 BACKGROUND

This is the second of two reports issued by the Office of Inspector General (OIG) concerning
the issue of patient dumping. Patient dumping can be defined as the refusal of a hospital to
provide necessar treatment to an emergent patient or woman in active labor on a basis
(primarly the inability to pay for services) unrelated to the hospital' s capability to provide
care or the patient s need for care. The first inspection on this subject ! attempted to determine
if the rate of patient dumping could be measured and if health care professionals saw problems
in the CUIent process of identifying and reporting alleged cases. The report was released in
August 1988 and reported that (1) objective measurement of the problem was diffcult due to
currnt record keeping practices by hospitals; (2) hospitals did not uniformly or consistently
report incidents of dumping to the proper authorities; and (3) perceptions vared widely
among practitioners concerning the rate of dumping at their facilities.

In light of these findings, the OIG recommended that steps be taen to encourage hospitals to
report suspected cases of dumping, including making reporting of suspected cases of dumping
a condition of paricipation in the Medicare program, posting notices in hospital emergency
rooms (ERs), clarfying definitions, and conducting direct outreach to professional associa­
tions such as the American College of Emergency Physicians (ACEP). The OIG also recom­
mended that anti- dumping regulations require that all ER records clearly identify transferred
patients , in order to support compliance reviews conducted by the Deparment of Health and
Human Services (HHS).

This inspection attempted to determne how HHS components responsible for the enforcement
of anti- dumping laws have responded in the past, and would respond in the future, to com­
plaints of patient dumping received by the Deparent. The HHS has jurisdiction concerning
patient dumping under two different statutory authorities, with three components within HHS
involved in enforcement activities: the Office for Civil Rights (OCR), the Health Care Financ­
ing Admistration (HCFA), and the GIG.

The fIrst authority under which the Deparent has jurisdiction over patient dumping is the
community services assurances provision of the Hill- Burton Act of 1946, 42          C. 216,
 300m- 4 and 3000- 1(6) (titles VI and XVI), and the accompanying regulations (42 CFR sec­
 tion 124. 603(b)) issued in 1979. (Appendix A contains the Hil- Burton regulation. ) The Hil-
Burton Act , which provided constrction and modernization grants to hospitals , required
grantees to make certain assurances: among them, that they would make their facilities avail­
able to persons residing in their community. The regulation issued in 1979 requires emergen­
cy medical services to be provided regardless of a patient s ability to pay for such services and
prohibits the trnsfer or discharge of patients unless appropriate medical personnel determine
that such action wil not risk substantial deterioration of the patient s condition. The OCR has
jurisdiction over the Hil- Burton authorities.
The Consolidated Omnibus Budget Reconciliation Act (COBRA) of 1985 amended title
XVIII of the Social Security Act. Draft implementing regulations were issued in June 1988
(see appendix B). This authority, effective August 1986 and under the jurisdiction of HCFA
and OIG, is much more specific than the broad statutory authority of Hil- Burton. The
COBRA requires that (1) hospitals screen all patients presenting themselves for treatment to
determne if an emergency condition is present or the patient is in active labor; (2) hospitals
stabilze panents before transfer, unless the patient has requested the transfer or a certfication
has been signed by a physician attestig that the benefits of the trsfer outweigh the risks; (3)
the transferrng hospita contact the receiving facility for permssion to transfer; (4) medical
records accompany the patient; and (5) the hospital effectuate the transfer through qualified
personnel and equipment.

There is certn   jurisdictional overlap, but also certain distinction ,
                                                                     between these two
authorities. For example , the Hill- Burton provision applies only to facilities which received
Hill- Buron funds. The COBRA applies to all facilities which are Medicare- paricipating.
Consequently, not all complaints actionable under COBRA would be actionable under Hill-
Burton, since not all Medicare- paricipating hospitals received Hil- Burton funds. However
all Hill- Burton complaints are actionable under COBRA , since all Hill- Burton facilities are re­
quird to be Medicare- paricipating.

On the other hand, because COBRA is more specific, a violation under COBRA might not be
a violation under Hil- Burton. Failure to provide a physician certification , contact the receiv­
ing facility or provide adequate transportation , for example, are violations of COBRA only.

Remedies under the two authorities var greatly, as well. Under Hil- Burton , OCR may only
negotiate a compliance plan or sue for specific compliance through the Deparent of Justice
(DOl).  Under COBRA , however, a hospita or responsible physician may be suspended or ter-
minated from the Medicare progr, and assessed a civil money penalty (CMP) of up to
$50, 00 per violation (as amended by the Omnibus Budget Reconcilation Act of 1987).
While HCFA is responsible for pursuing tennnation actions, the Secretar of HHS delegated
to OIG the responsibility for suspensions and assessment of CMPs, resulting in shard enforce­
ment authority within the Deparment.

As a result of these separte authorities, differing conclusions can be reached by OCR and
HCFA in determining whether a hospital has engaged in patient dumping. Actions taken wil
always difer, based on their different enforcement authorities. While HCFA and OIG should
always reach the same conclusion , since both ar relying on the same statutory base, these
components may also disagree on the appropriate action to take. As discussed in the findings
the involvement of three components under two separate legislative authorities has sometimes
resulted in confused and duplicative actions by the Deparment concerning a single hospital.

To date considerable criticism has been levied at the Deparment for lack of vigor in enforcing
its anti- dumping authorities. All three components have come under fire for a lack of aggres­
siveness in pursuing and taking action on alleged cases. A former Director of OCR , Sylvia
Drew Ivie, testified before the Human Resources and Intergovernmental Relations Subcommit­
 tee of the House Committee on Government Operations in August 1986 that dumping occurs
regularly at Hill- Burton facilties and OCR' s actions in enforcing the community service
obligation have-been minimal. 2 A report issued by the same subcommittee in March 1988
based on hearngs in fall 1987 criticized both HCFA and OIG for failng to use their enforce­
ment powers under COBRA. Judith Waxman of the National Health Law Project testified that
  lawyers are hesitant to use (the COBRA) process because they have one of two experiences;
either they never hear a response at all from the agency, or the response is so delayed that their
clients are totaly discouraged by the wait and the meagerness of the ultimate results. ,, 3 The
HHS has been furter criticized for the delay in publishing regulations supporting the anti­
dumping provisions of COBRA , which were eventually released in draft in June 1988. Critics
point to the small number of cases in which penalties have been levied or action has been
taken by OCR , HCFA , or OIG as evidence of a lack of commitment by the Deparment in the
area.

PURPOSE

The purpose of the inspection was to determine how the varous components investigate and
respond to complaints of patient dumping, what problems had been encountered, and what cor­
rections ar needed to correct any past diffculties. The overall objectives of the study were to
assess:

        if procedures are in place for the timely investigation and resolution of complaints;

        if procedures exist for the referral of complaints to all HHS components with
        jursdiction; and

        what the components ' actual experiences have been in regard to receipt of and response
        to complaints of patient dumping.

METHODOLOGY

In order to support these objectives, personnel from the Offce of Analysis and Inspections
(OAl) of the OIG conducted on-site interviews with HCFA, OCR , and the Office of Investiga­
tions (Ol) OIG headquarers personnel in Washington , D. C. and Baltimore, Marland. A pre-
inspection visit with representatives of the thee components in the Philadelphia, Pennsylvania
regional office was undertaken to focus inspection issues and provide background under­
standing.

Interviews were also conducted with regional personnel from all components in Atlanta, Geor­
gia; Dallas, Texas; and San Francisco , California. These three regions received over 90 per­
cent of all dumping complaints received by the Department as of April 1988 and were
therefore considered to have the most substantial experience in investigating patient dumping
allegations. We did not attempt to determine why complaints received by. HHS are
concentrted in these three regions, although the existence of strong State laws in Texas and
California may be one explanation for increased reportng of cases in those areas. .

In addition to interviews with regional personnel , case fies maintaned by the three com­
ponents in those regions were reviewed to determne time frames for referral and investiga­
tion
       4 as well as to document conclusions reached and actions taken. No attempt was made to
assess the   quality of the investigations undertaken by any of the components.
                                            FINDINGS


Procedures for the investigation and referral of dumping complaints are relatively new or
are still evolving.

Severa persons interviewed at the regional level indicated that , in the past , they had con­
ducted investigations of complaits of patient dumping " by the seat of our pants. " For over        a
year after enactment of COBRA , no specifc instrctions were issued to the regional offces
(ROs) concerning the proper procedures to follow in the , event a complaint of patient dumping
was received. Up until this time, the available guidance from headquarers for HCFA , OIG,
and OCR personnel was limited to investigative and compliance standards to deal with all
complaits, not just those involving patient dumping, and no guidance had been given in
regard to the referral of complaints to other components with jurisdiction. In the past year, in­
itiatives have been taken by all three components to provide more specific guidance to their
ROs in these areas.

HCFA Instructions

      The HCFA provided interim instrctions to its ROs in June 1987 with additional instrc­
      tions released later in June and in July of that year. Under these instrctions the State
      agency must conduct an investigation of the complaint within 5 days surveying, at mini­
      mum , emergency services and medical staff under the conditions of paricipation. A
       fast track" tennnation is to be initiated if results indicate that the hC?spital is out of com­
      pliance. According to the July instrction , OCR is also to be notified of all complaints.

      The HCFA now has in drt new implementing instrctions for the Regional Office
      Manual and State Operations Manual concerning dumping complaints. The instrc­
      tions, in addition to setting timefraes for investigation by the State agency, also set
      timefraes for peer review organization (PRO) action: where the PRO is involved for
      medical review, the instrctions stipulate that the PRO must    rovide written evaluations
      within 5 working days of all cases referred for investigation.

     The HCFA has advised its ROs that conditions of paricipation for emergency services
     and medical staff must be surveyed in validation surveys and that findings of noncom­
     pliance from those surveys should also be used to initiate a " fast track" termination. In
     one region , a letter was sent to the PROs stating in par: " In the course of a routine
     review, the PRO may identify that a hospital admission followed a transfer from another
     hospital emergency service. If the evidence in the admitting hospital' s record indicates
     that the patient was inadequately treated in an emergency rom or that argements
     had not been made for an appropriate transfer... the PRO should notify this offce. " A
     referr sheet to be completed by the PRO in such cases was attached.


     The latest instrctions to be inserted in the State Operations Manual also provide more
     detail on investigating complaints and include a worksheet for gathering pertinent infor­
      mation. Information to be gathered by the surveyor at the facility which allegedly
      dumped the patient includes (1) verification that emergency services ar avaihible; (2)
      veriication by review of a sample of emergency patient and active labor patient records
      that these patients were appropriately screened (including the complaint that prompted
      the investigation); (3) verification of whether emergency care was rendered that stabi­
      lized the condition; and (4) verification that patient transfers complied with COBRA re­
      quirements.

OIG Instructions

      The OIG issued interim instrctions in July 1987 to its regional offces concerning
      dumping complaints. In October 1987, OIG issued more detailed regional instructions
      on the handling of dumping complaints. Any complaints received by OIG are to
      referrd first to both OCR and HCFA, rather than investigated by OIG (although certain
      facts may be established prior to referral , such as obtaining the name of the facility,
      name of the complainant , etc. ). These instrctions indicate that OIG wil rely on
      HCFA' s survey to determine if the case is substantiated, and that investigators should
      pursue a course of action with the CMP negotiator if the case does have merit. No
      specific instrctions for the development of the case for imposition of CMPs are given
      and no timefraes to impose a CMPhave been established; standard procedures are
      used. A section for investigating dumping complaints is being prepared for the Special
      Agent Handbook.

     Instrctions issued at the same time as the October transmittal direct regional OIG per­
      sonnel to review samples of previously closed cases in HCFA to determine if OIG ac­
     tion is needed on those cases. In practice such reviews have been conducted on a small
     scale and sporadically; OIG considers this primarly a mechanism to " beat the bushes
     for cases in those regions where few allegations of dumping have been substantiated by
     HCFA and referred to OIG.

     In addition , OIG is trcking all allegations of dumping received by HCFA on a monthly
     basis. Recently meetings have taen place in headquarers with OCR staff to determine
     how OCR activities might be incorporated in the report to reflect all deparmental ac­
     tivity on dumping cases.

OCR Instructions

     The OCR' s dumping instrctions to its ROs are the most recent of all , and in fact were
     published after we conducted our interviews (April 1988). The new instrctions assign
     a much higher priority to dumping cases than some OCR regions report having assigned
     them in the past, even though the investigation of dumping cases was listed as one of
     the Director s national priorities for 1988. For example, in one region , OCR personnel
     reported that they have relied solely on HCFA' s investigation to detennine if a case has
     merit because OCR lacks the necessar medical expertse (although the OCR Director
     in comments to the draft of this report, contended that reliance on HCFA's investigation
           was to avoid duplicative effort, not because of OCR' s lack of access to medical exper­
           tise). Similar reliance on HCFA' s investigation was documented elsewhere where OCR
           staff felt that, in addition to the necessar expertise, HCFA also had the better enforce­
           ment authority. No paricular priority was assigned dumping cases by OCR staff in
           those regions.



          The new instrctions, however, state that dumping complaints should be handled on a
          priority basis, just as AIDS discrimination complaits, although the timeframe for inves­
          tigating the cases remains the standard 195 days. 6 In addition , those instrctions detail
          how a compliance review should be conducted. The information to be gathered by the
          OCR investigator, according to the Model Investigative Plan includes: (1) a copy of
          hospital' s nondiscrimination policy; (2) a description of emergency room services of­
          fered; (3) a copy of hospital' s wrtten policies and procedures regarding emergency
          room tratment of varous persons; (4) a copy of hospital's wrtten policies and proce­
          dures regarding in- patient admission; (5) copies of forms or other written information
          provided to patients; and (6) patient records from both sending and receiving hospitals
          identiying emergency room treatments, transfers and releases.

          Appendix C contains exhibits displaying each component s instrctions to its regional
          or field offces for respon ding to complaints of patient dumping.


There are different conceptions within the Department as to what constitutes patient dump­
ing, due to varying authorities under which it might be prosecuted (COBRA , Section 504
title VI).

The OCR' s procedures indicate that a dumping complaint may be investigated under a number
of different authorities, including section 504 of the Rehabilitation Act of 1973 and title VI of
the Civil Rights Act of 1964. These authorities would be invoked if a hospita denied a person
emergency services on the basis of race, color, national origin , or a mental or physical hand­
icap. We did not find any evidence in the three regions we visited that a complaint of emer­
gent patient dumping as defined under COBRA has been pursued under these authorities.

Patient dumping is generally considered an economic phenomenon , as in Hil- Burton, where
emergency services are denied due to financial factors (inability to pay, lack of insurance).
This is primarly the group at which COBRA is aimed. However, COBRA would also cover
circumstances in which a patient is denied needed emergency services on a basis other than an
economic factor (such as the assumption that a patient is high- risk for the AIDS virus), since
COBRA requires screening of    all patients and treatment of all patients in need.

Where a patient is denied emergency services on a basis covered by title VI or section 504 

                                                                                                and
is not in medical1Jeed only OCR would have jurisdiction (as long as the patient was screened
to determne if need existed). While OCR' s dumping procedures do nOt include instructions
to the regional offices on how to approach non-emergent patient dumping (OCR has indicated
 that such procedures are already in place), that area is clearly within OCR' s purview and does
 not overlap with COBRA , which covers only emergent situations.


 Steps are being taken to improve coordination among the components, although this has
 not been a priority in the past.

Meetings have taken place recently at the headquarers and regional level between 01 , HCFA
and OCR to discuss the handling and coordination of dumping complaints. These meetings
have taen place on the initiative of all involved components. As noted above, recent instrc­
tions issued by the central offices of OCR and HCFA to the ROs also indicate that referral of
complaits to the other office should take place when a complaint is received.

These steps, although helpful , may not suffice to avoid situations such as that described by
one regional offce, in which one hospital was subjected to a number of separate visits by
HCFA , OCR , and OIG at virually the same time. The OCR representative at this region indi­
cated that , on the same day he was meeting with obstetrcal staff to describe the requirements
and implications of the compliance agreement reached between the hospital and OCR , HCFA
representatives were " down the hall" asking for additional information to support their inves­
tigation. The OIG staff arved on the site a few days later to determine if imposition of CMPs
was waranted. Under current procedures, separte investigations may stil occur (although
OCR' s instrctions indicate that the feasibilty of pursuing a joint investigation with HCF
should be considered) and this kind of situation could be repeated.

The referral of complaints to other components with jursdiction has been a parcular problem
in the past, especialy between HCFA and OCR. Several regions commented on the lack of
communication between these two components. For example, our case fie review indicated
that in two regions HCFA referred a number of complaints in batches to OCR only after
HCFA instrctions were issued to refer cases to OCR. In seven instances where HCFA sub­
stantiated a complaint, there is no evidence in the case fie that it was referred to the OIG for
penalties. In addition , practices appear to var among the regions as to whether a complaint is
referrd imediately upon receipt to the other components, or only after a preliminar deter­
mination has been made that the complaint has some merit. The new instrctions issued by
the central offices directly address the question of referrals and should eliminate this problem.

The number of patient dumping complaints received by the Department has steadily
increased over time.

As exhibit 1 indicates, in the three regions studied, the Deparment received four complaints
in the fit quarer of the Federal Fiscal Year 1987 (October - December 1986); 15 in the
second quarer 1987 (Januar - March 1987); 24 in the third quarer 1987 (April
                                                                                 - June 1987);
28 in the fourth quarer 1987 (July - September 1987); 33 in the fIrst quarer 1988 (October
December 1987) and 29 in the second quarer 1988 (Januar - March 1988).
                                                EXHIBIT 1



          NUMBER OF COMPLAINTS RECEIVED BY HHS
                                 By quarter ,   in 3 regions studied




                       11-             111-87                IV-                       11-88
                                      Fisc 01 Year Quarter



Sixty- five (43 percent) of the total number of complaints in the three regions were received in
Region VI. However, the most dratic increases in caseload occUIed in Regions IV and IX.
In Region IX , for example, nine complaints were received prior to August 1987. Between
August 1987 and April 1988, a 9-month period, an additional 32 complaints were received.
                                                    Most complaints investigated by HCFA to
                                                    date in the three regions studied have been
                                                    determined to be unsubstantiated. When
                                                    complaints are substantiated, termination
                                                    rarely occurs.

                                                    Of a total 151 complaints received in the
                                                    thee regions visited, HCFA found 98 cases
                                                    (65 percent) to be unsubstantiated and 41
                                                    (27 percent) to be substantiated. Ten inves­
                                                    tigations were in progress at the time of our
                                                    analysis, and the status of two cases was un­
                                                    known.
                     2 Status unknown (1%)


                                                    Thirty-two termination actions have been in­
                     10 Investigations
                     in progress (7%)               itiated by HCFA; in 30 of those cases, hospi­
                                                    tas submitted plans of correction and no
                     41 Substantiated (27%)        termination took place. Two hospitals were
                                                   terminated for COBRA violations, both in
                     98 Unsubstantiated (65%)      Region VI?

From discussions with regional HCFA sta, it appear that termination actions ar pursued
only where evidence of CUIent noncompliance exists. One HCFA representative indicated
that termnation actions " won t stad up in cour " if the cUIent state of compliance has not yet
been determed. Consequently, HCFAconsiders a plan of correction to be suffcient to can­
cel a termnation action.

Our analysis reveals wide regional varances, both in substantiating cases and in taking action
on substantiated cases. In Region VI , 27 of 65 complaints (42 percent) were found to be sub­
stantiated. In Region IV, 5 of 11 complaints (45 percent) were found to be substantiated; the
rate was even lower--three out of 41 complaints, or only 7 percent-- in Region IX. Regions
also vared widely in their response to substantiated complaints. In Region VI , termnation ac­
tions were initiated in 24 of the 27 (89 percent) substantiated cases. In Region IV, termination
actions were initiated in five of the 11 substantiated cases (45 percent), and no actions were in­
itiated in any of Region IX' s three substantiated cases.
                                The OCR often lacks jurisdiction and has
                                not yet taken enforcement action on dump­
                                ing referrals from HCFA in the three
                                regions studied.

                                In the three regions studied, OCR had not
                                yet taken any enforcement action on cases
                                referred by HCFA. In 22 of the 33 cases
                                (67 percent) referred to OCR by HCFA
                                OCR determned it did not have jurisdic­
                                tion. Eleven complaints are pending
                                (which may include active investigations in
                                progress) in OCR in those regions; most
22 No jurisdiction (67%)
                                received recently.
11 Pending (33%)





                                Many cases substantiated by HCFA are
                                still under investigation by DIG.

                                The OIG may take action based on past
                                violations, regardless of a hospital' s cur­
                                rent compliance. In 34 of the 41 cases sub­
                                stantiated by HCFA , documentation of a
                                formal referral to the OIG was found in
                                the fie. As of April 1988 in the 3 study
                                regions, 25 of these 34 cases (74 percent)
                                were stil under investigation in OIG field
                                offices. Eight cases have been referred to
                                the OIG centr office for action , with
    2 CMP impose (6%)
                                CMPs imposed in two of those eight cases.

    1 Closed , no action (3%)
                                Conversations with OIG staff indicate that
                                the high number of pending cases is
    6 In negotiation
                                primarly due to recent referrals from
    for settlement (18%)        HCFA (many of the pending cases were
    25 Investigations           received after Januar 1988), a lack of
    in progres (73%)            resources (no additional resources were
authorized in the COBRA legislation for enforcement) and the complicated nature of dumping
cases (involving professional medical judgment, requirng medical review, etc.

Resolution of dumping complaints is time-consuming.

It has taen an average of over 30 days for HCFA to refer the complaint and receive results
from the State agency for cases ultimately found to be substatiated in the three regions
studied. The average for cases ultimately found to be unsubstantiated is even higher.
However, the average time requird for this activity has improved since a year ago (see below).

It has taen anywhere from the same day to 214 days for HCFA to make a formal referral to
the OIG for investigation at the regional offce level , although the average time required has
improved since August 1987 (from 66 to 42 days in Region
                                                                   and from 111 to 37 days in
Region VI.) 8 Of the eight cases referred to the central offce, it has taken 42 to 241 days for
the regional OIG to complete its investigation and refer the case to the central offce for im­
position of CMPs or suspension , with two cases takg over 200 days and another three taking
over 100 days. In the two cases where CMP settlement has occurred , it has taken 177 and 214
days to reach agreement.

                                            EXHIBIT 2




                 AVERAGE TIME REQUIRED FOR HCFA
                              TO RECEIVE RESULTS FROM STATE AGENCY

    140

    130

    120

    110

    100




          1-87        11-87             111-87            IV-87                         11­

                                         Fiscal Quarter
Analysis of OCR timeframes was not conducted due to their limited experience. As indicated
earlier, 22 of 33 complaints received in the three regions have been closed because OCR deter­
mined it did not have jursdiction. Of the remaining complaints all are pending, most received
on referrals from HCFA after Januar 1988.

Activities undertaken by the components include data collection and analysis, interviews with
patients and hospita staf, and reviews of other patient files to determine if a pattern of abuse
exists. Sta interviewed in all thee components described these activities as " time- intensive.
In one region , 01 staf indicated that they expanded their investigation in one hospital when
they discovered a pattern of abuse in order to support the imposition of a larger CMP, al­
though they could have recommended the imposition of a smaller CMP earlier based on
validation of the original complaint.
                                  RECOMMENDATIONS


The Department should align the responsibilties of component agencies in order to assure
a unifed response to a single complaint, or series of complaints involving a single hospital
so as to improve response and the efficient resolution of complaints.

Based on our findings, it appear that all involved components are taking productive steps to
improve the Deparent s response to complaints of patient dumping, including the coordina­
tion and referral of complaints between components. Even so, as many as three separate inves­
tigations of a complaint or a series of complaints involving a single hospital may take
place--one by HCFA to detennne if a violation of COBRA occurred and the hospital' s current
state of compliance; one by OIG to further develop HCFA' s case to determine if a pattern of
abuse by the hospita exists; and one by OCR to determine if a violation of Hil- Burton oc­
curd.
The undertg of as many as three investigations results in duplicative effort (since aU three
components rely on similar information to develop the case); ineffcient expenditure of resour­
ces (three teams instead of one); an inconsistent response by the Deparent (since all three
components may be requesting information and conducting on-site visits at the same time);
and a lengthened response time (since OIG begins its own investigation after HCFA' s deter­
mination that a violation has occUIed, for example). Consequently, we recommend that a
unified approach be taken to respond to allegations. We recognize that a rapid response to
complaits . must not be jeopardized, but instead should be supported, by a unified strategy.

The preferrd approach to accomplish      this objective would require, among other things, that
(1) a single notification regarding the commencement of an investigation be made to the hospi-
tal and the complainant; (2) a single investigative strtegy be pursued to meet the level of
proof requird (including a determation as to the valdity of allegations of past infractions
and the curent state of compliance by the hospita); (3) a single data request to the hospital be
made; (4) a single set of interviews be conducted with hospital staff, the complainant, in­
volved patients, and other relevant pares; and (5) a single notice of determination , outlining
conclusions and actions to be taken , be made to the hospita and to the complainant.


The objective of a unified response can be supported in a number of different ways. Among
the alternatives ar:

     JointOCR- HCFA investigations could be conducted, as suggested by OCR in its
     manual for responding to complaints of patient dumping. A single approach could be
     developed, or investigations could be mapped out on a case- by-case basis , with the
     component most directly involved takng the lead. The Offce of Investigations in OIG
     should consult with the team to ensure that data gathered wil support a determination of
     whether to impose a CMP or suspend a hospital or physician.
       The OCR could delegate its responsibility for investigating complaints of patient
       dumping under Hill- Buron to HCFA, since COBRA has a more detailed statutory base
       and enforcement is stronger under that authority. HCFA has access to more resources
       (PROs, State agencies) and has more medical expertise with which to judge the validity
       of patient dumping complaints. Further, as demonstrated by our analysis of the casefie
       information , most complaints are received at the State agency level , to which HCFA has
       a diect and pre-existing relationship.



We believe that both these approaches have merit and should be considered. There may be
other configurations which support the objectives outlined above , as well.

The HCFA and OCR should pursue legislation to better align their authorities under         Hil-
Burton and COBRA and to establish a common departmental definition as to what con­
stitutes emergent patient dumping under the relevant provisions of those statutes.

As noted previously in this report , OCR and HCFA may reach different conclusions as to
whether a complaint of patient dumping is valid based on their different statutory authorities.
For example, lack of medical certcation attesting that the benefits outweigh the risks for
transfer of an unstable patient is a violation of COBRA , but not of Hill- Burton. This lack of
conformty could jeopardize the effectiveness of a unified strategy.

As noted earlier, OCR has authority under Hill- Burton over patient dumping in a non-emer-
gent settng. The authority of OCR in this area does not overlap with HCFA' s authority under
COBRA and this type of violation should not be included in a common definition of emergent
patient dumping. Furher, if OCR wishes to brig a discrimination action under title VI or sec­
tion 504 for actions that mayor may not involve emergent patient dumping, it may do so on
its own authority, outside the Hill- Burton/COBRA frework to prevent dumping of patients
from emergency rooms. Thus we agre with HCFA's comment to our draft report that " OCR
should continue to be responsible for (violations of Hill- Burton which do not also violate
COBRA).

In order to develop an efficient and consistent response to complaints, a set of guidelines
should be developed by the Department which outlnes in detail what actions can be taken
(termination , suspension , CMPs, etc. ) in response to varying levels of violations (isolated in­
cident, pattern of abuse, evidence of willful negligence, etc.

As noted in our findings, there are wide varations within HCFA in actions taen in response
to substantiated cases. Although HCFA' s new draft procedures wil support uniformty in ac
tion, all components should take appropriate measures to ensure that consistent actions are
taken in regard to substantiated cases. A set of guidelines, developed in tandem by HCFA
OCR , and OIG, should be developed for use by regional offces outlining the full range of ac­
tions that can be taken in response to varing levels of violations, and guidance for making the
proper determination.
A set of time frames for investigation and resolution of complaints should be developed, and
a screening mechanism (such as the State agency) used to focus investigative resources on
more productive cases.

Time frames for investigation and subsequent action should be established, such as those
detailed in OCR' s April 1988 guidelines, which outline expected deadlines for activities in all
phases  of an investigation from receipt of a complaint to action by the Deparment. Lastly,
since may complaints ar unsubstantiated, we support HCFA' s use of the State agency to con­
duct a prelimiar, prompt investigation of a complaint before the Deparment commits sig­
nificant resources to a full investigation.
                                   END- NOTES

Office of Inspector General, " Patient
                                    Dumping After COBRA: Assessing the Incidence
and the Perspectives of Health Car Professionals, " OAI- 12- 88- oo830 , August 1988.

Commttee on Government Operations, " Investigation of the Offce for Civil Rights in the
Deparent of Health and Human Services, " House Report 100- 56, April 1987, p. 28.

Commttee on Government Operations, " Equal Access to Health Care: Patient Dumping,
House Report 100- 531 , March 1988, p. 12.

Although the term "investigation " has specific connotations in the investigative
community, it is used here as a generic term to mean examinaqon of facts, review or
surey. It does not denote any specific process, level of effort or standard of proof.

It should be noted that the time frames for the PRO and State Agency are for investigation
of the initial complaint , and do not include additional time to expand the scope of the
review, if necessar; a HCFA re-review , if HCFA determnes that it is unsatisfied with the
State investigation; or termnation and re-survey to determne if conditions have been
corrcted.

The 195 days ar alocated as follows: 15 days for acknowledgement letter to
complainant; 75 days for investigation; 15 days to issue letter of fIndings or letter of
waring; 90 days to issue the letter of noncompliance, negotiate a settlement or refer the
case for enforcement.

Hospitas may re-enter the program after having been terminated, if HCFA determines
that the hospita is now in compliance.

No substantiated cases were referred to Region IX OIG staff during the study period.

The dates used for CMP settlement ar the dates on which the necessar paperwork is
signed. According to 01 , agreement on the terms of the settlement may take place
considerably sooner.

    APPENDIX A

HiI- Burton Regulation
                                                     .&

   124.601
                                                          He   TI 42--
                                            lIund of 1', color, naona ori
     601 Appllc.
                                            cr   or ID . other arun unla
                                            to an individua' .
                                                    ne for the servce
 . 124.

   The prov1ona of thJlUbpa apP17   Ic        fact       nee
                                            or the avaWt of the  se-
 to an reipient of Jlera  Ulta IIh     In the       . SUbje  to
                                         (b) Cconc emel' lerv­
 under Title VI or XV of the Publi
 Health Servce Ac. th.
asce                      buven aD
                                    1c) facty m& de
           that It would ma the fa­ penauneuth
                                            who ar unle
                                                 thos penona &1 for
                                                                                           se
                                                                                          to


cWty or porton theref uate ava.                                    re
                                    qui
able to al persna red1
cu   of Title XV &lte appUcatl aerv
                          (and. In
emploYed), In the terrtori ar
serves Th      &I    18 referr to In
                                     pa
                                     tr.
                                          to be
                                                   P.
                                                provide UDm  p-nate
                                              under the provflona of Sub-

                                       (2) A penon 18 red1 In the fac­
                                                   ae
                                                 ar for pur of
thl IUbpar .. the " communt7 ae.
Ice aaur                             1e0n If                    the penon:
                                                         Uvf In the .mce ar
'124.10  Delt
       us thlUbpa
                                              (I) 18


                                netl or for aD IndeflDte period
                                           the intention to 
             r-"'A'n there perm
                                                                                                     with

                                 CU) 18 Uvf In th sece ar
  As      In
   Ac" mean the PubUc Heath Se.                                                                       for
Ice Ac u amende                 PUl     of emloJ'ent; or
  Faty" mean th aD entlt
reived Ult&
                                              CW) 18
                                           who redein
                                                           Uvf with. fam m""bf
                                                              th ae ar
communty servce  &lce
                     uner Title VI .
Title XV of the Ac and         provide a    (b) 8
                                           ID            Im (1) A fact
                                               not deD emel' servce to
  FI year" mea facty'1                     an persn who redes
yea.
  Sereta me& the Seta
                                           of factlei U8              the
                                                             under Title XV
                                           of the Ac fa emloyed) In the fac.
                                                                                      Cor, In



Health and H nmJU Servce or hJ
lepte.
                                           tr. servce             ar aD th lJund
                                           the pen fa unle to pa for thOl
   Servce ara " me& the ,eollph1 semce
&ra deslite u the       ar    served b    (2) A facty ma
the facty In the moa rent State tht bu reived emel"enc,. &semce      penon      dfha
pla approved by the Set& under or ma
Title VI, except that. at the reuest of
                                                        trer
                                                       the penon to another
                                        factyable to provide n lIU7 sert.
the tacty, the Set& 11 des,- Ice when the approprfte medca
nate a dfferent ar propo
facty when he    detelma tht a dI.
ferent ar 18 appropriat bu on the
                                        persnnel determe tht
                                           trfer wt
                                           . subltatla rI
                                                                  DOt subjec the
                                                                                        cU
                                                                                         pe
                                                                            of deterioration. In
criteria In 42 CP 53. led).                medca condition.
   State. acenc " mea the acnc7 of
a state ful or condltlona d llD
                                             Cc) 77drd JHrt
                                           The fact Ihal mae
                                                                          "JO         JJrol'
                                                                                      a.menta(1)fl
ee by the Set& u the State                 if ellle to do 10, for reimburment
health    p1a      and development
acency of the Sta under seon 1521
                                           for servce with
                                             (1) ThOl prlpa State and loc
of the                                     IOvemmenta th-pary payOI' tha
. 124.10  Pr of.                           provide reimburment for servce
                                           th
  (a)  Ge    1) In order to comp17
with Its communty servce
                                                fa not leu tha the acua
                                           u determed In acrdce with ac
                                                 acuntf prlpla; and
a facty 8h mae the servce pro cete     C0
                                               Fera ,ovementa
                                           pay pro such med and
                                   CD)
   ed In the facWty or portion
                   theref
conscte modern or convert medcad.
with Fera                       Title VI    (2) The
                                                       In        ad..tnec
               Ulfatace under
or XV of the Ac avaUble to al pe.          1& stPi to
                                                            factY8h tae


sona relc: (and. In the cu of fac.         and servce of the tact ar ava
                                                                                tht             on to
ties aute   under Title XV of the          ble to beneflc1es of the . covernen.
                                           ta   procr speied In parph
Act. employed) In the tacWty'1 servce
ara without     cUtlon        on the       (c)( 1) of th setion without                        dI­
 APPENDIX B


Cobra Regulation
                            Federal Register / Vol. 53, No. 116 /
                                                                  Thursday, June 16, 1988" / Proposed Rules

                                                                                                                                       22513
  by reviewing discharge plans to ensure
 needs.
  that they are responsive to discharge

 (Catalog of Federal Domestic Asslslance.
                                                      HCF A would provide for the
                                                   termin atlon of a provider s agreement
                                                   for violation of any of these provisions.
                                                                                                 SUPPMENTARY INFORMATION:
                                                                                                 I. Backgrund
                                                                                                 A. Participation in the CHAMPUS and
                                                   In addition. OIG would provide for
 Programs No. 13. 773. MedicareHospital            suspension of a provider s agreement          CHAMPV A Programs
 Insurance; No. 13. 714. Medical Assistance)
                                                   and for civil monetary penalties for           CHAMPUS (Civilian Health and
    Dated: September 3, 1987.                      violation of the emergency care               Medicnl Program of the Uniformed
 Wiliam L. Roper.                                  provision.                                    Services) and CHAMPV A (Civilian
 Administrator. Health Care Financing                                                            Health and Medical ProRram of the
" Administration.                                    These revillions would Implement
                                                   sections 9121 and 9122 of the                 Veterans Administration) programs pay
    Approved; November 5, 1987.                                                                  for health care services furnished to
                                                   Consolidated Omnibus Budget
  Otis R. Bowen,                                  ReconcilatiorfAct of1985 (as amended          dependents and survivors of military
 Secretary.
   Ediloral Nole: This document was received
                                                  by section    40 of the Omnibus Budget
                                                  Reconciliation Act of 1987), section 233
                                                                                                personnel, of retirees and their
                                                                                                dependents. and of veterans. Generally.
 for publication at Ihe Office of the Federal     of the Veterans ' Benefit Improvement         the programs have paid hospitals based
 Regisler on June 10. 198.                        and Health Care Authorization Act of          'Jn their charges. Section 931 of the
 (FR Doc. 8813514 Filed 

                                    : 8:45 amJ    1986. and section 9305(b)(I) of the
          Department of Defense Authorization
 BlNG CO 41201..                                  Omnibus Budget Reconciliation Act of          Act, 1984 (Pub. L. 98-94) authorized
                                                  1986.                                         these programs to pay (to the extent
                                                                                                practicable) for inpatient hospital
42 CFR Part       405,      489, 1001 ana 1003    DATE Comments wil be considered if            8ervices using Medicare reimbursement
                                                  we receive them at the appropriate            procedures. Because the Medicare
I BERC-393-PJ                                     address. as provided below, rio later         prospective payment system (PPSJ (the
                                                  than 5;00 p. m. on August IS, 1988.           system whereby we pay a hospitRI a
Medicare Program; Participation In                                                              predetermined amount based on the
CHAMPUS and CHAMPVA, Hospital
                                                  ADDRESS: Mail   comments to the               patient's diagnosis and any surgical
Admissions for Veterans, Discharge                following address: Health Care
                                                  Financing Administration. Department          procedures preformed. rather than by
Rights Notice, and Hosptlal                                                                    " the number of days hospitalized) results
Responsibility for Emerency Care                  of Health and Human Services,
                                                  Attmtion: BERC-93-P, P. O. Box 26676,         in Medicare cost savings. the
                                                  Baltimore, Maryland 21207.                    Department of Defense (000) expects
AGENCIES: Health Care Financhlg

                                                                                                that it would realize similar savings if it
Administration (HCFA) and Office                    Pleas address a copy of comments on         were to use a model similar to
Inspector General (OIG). HHS.                     information collection requirements to:       Medicare s PPS. Paying on the basis of a
ACTON: Proposed Mlle.                             Allson Herron, EOMB Desk Officer for          fixed rate appropriate to the particular
                                                  HCFA. Offce ofInformation and                 diagnosis involved has been shown to
SUMMARY: We are proposing   to re vise           Regulatory" Affairs, Room 3002, New
requirements for Medicare participating                                                         be an equitable method of paying for
                                                 EXecutive Offce Building. Washington.          hospital care. Therefore. the Office of
hospitals by adding the following:               DC 20503.
  . A hospital must provide inpatient

                                                                                                Civilian Health and Medical Program of
hospital services to individuals who               If you prefer, you may deliver your          the Uniformed Services (OCHAMPUS)
have health coverage provided "by either         comments to one of the following              has published a final role which
the Civilan Health and Medical                   adc;esses:                                    includes provisions for the
                                                                                               implementation of a DRG-based
Prgram" of the Uniformed Servces
(CHAMPUS) or the Civilan Health and
                                                 Room     30. Hilbert H. Humphrey
                                                   Building, 20 Independence Ave. SW.,
                                                                                               payment system modeled after
Medical Prgram of the Veterans                                                                 Medicare s PPS for CHAMPUS inpatient
                                                   Washington, DC. or                          hospital admissions occurring on or
Administration (CHAMPV A). subject to            Room 132. East High Rise Building, 6325
limitations provided by regulations, and                                                                               FR 32992).
                                                                                               after October 1. 1987 (52
                                                   Security Boulevard. Baltimore.                 Hospitals that furnish services to
accept the CHAMPUS/CHAV A                          Maryland.
determined allowable amount as                                                                 CHAMPUS and CHAMPV A
payment ih full for the services.                  In commenting, please refer to fie          benefiCiaries are authorized to provide
  . A hospital must provide Inpatient
           code BERC-93-P.                               services to these beneficiaries following
hospital services to miltary veterans              Comments received timely wil be             an approval process similar to that used
(subject to the limitations provided in 38       available for public inspection as they       for Medicare participation: All hospitals
CPR 17. 50 ff. ) and accept payment from         are received. which generally begins          certified by the Joint Commission on
the Veterans Administration as payment           about three weeks after publication of a      Accreditation of Health Care
in full. 

  . A hospital must give each

                                                 document. In Room
                                                 Departent' s
                                                                      30    of the
                                                                 offces at 200
                                                                                               Organizations nCAHO) are authorized
                                                                                               providers: any Medicare hospital may
beneficiary a statement of his or her            Independence Ave., SW., Washington.           be (and all have been thus far) deemed
rights concerning discharge from the             DC, on Monday through Friday of each          to be authorized providers. All others
hospital.                                                                                      are surveyed by OCHAMPUS to
  . A hospital with an emergency
department must provide. upon request
and within thecapabiliHes of the
                                                 week from 8:30 a. m. to 5;00 p. m. (phone:
                                                 202-245-789)
                                                 FOR " FURTER   INFORMATION CONTACT
                                                                                               providers.
                                                                                               determine whether they are authorized

                                                                                                  Participation "   has a different
hospital, an appropriate medical                 Thomas Hoyer,                                 meaning for CHAMPUS and CHAMPV A
                                                                            607. For all       than for Medicare: providers have been
screening examination and stabilzing               provisions except suspensions and
treatment to any individual with an                civil monetary penalties.                   able to decide on a case- by-case basis
emergency medical condition and to any
                                                        whether to " participate " in the program
woman in active labor, regardless of the         Jim PaUon30                 . For             and thus accept the CHAMPUS/
individual' s eligibilty for Medicare.            . prOvisions ' relating to suspensions and   CHAMPV A- determined allowable
                                                   civil monetat' penalties.                   amount as payment in full (under these
      22514                  Federal R         8ter   / Vol. 53,                 116 / Thursday. June
                                                                                                              16. 1988 / Proposed
                                                                                                                                              Rules
      programs. beneficiaries are
                                  reuired tt'
      pay a cost-share for each hospital                     eligible to reive care at the hospital.
                                                            The hopital then would receive
                              In its Report accompanying H. R.
      admission. and Ihis Is considered to be                                                                          the House Ways and Means Commit lee
                                                                                                                                                                  3128.
     separale from the CHAMPUS/                             payment        lor
                                                                             the servces under
                                                                                                      the             indicated thai Congress was concerned
     CHAMPV A payment). Under Medicare,                     applicable VA payment system.


     hospitals must agree to bil the                        than simply on the basis of the rather                    about the increasing number of rP.orts
     for all beneficiaries and accpt progrm                 hospital's charges.                                       that hospital emergency rooms are
     Medicare payment as payment in fuff                                                                              refusing to accept or Ireat patients with
                                                            C. Statement of Beneficiary Rights                        emergency conditions. inCluding
     (less applicable deductibles,                                                                                    medically unstable palientS, if the
     coinsurance amounts, and noncovered                      After the propective payment system
     items).                                                became effective for the Medicare                         patients do not have m edica! insurance.
       As indicated above, all Medicare                     program, we began to hear allegations                     In addition. Ihe Report slated that there
     hospitals are also authorzed providers                 that Medicare beneficiaries were                          have been reports that patienls in an
     in CHAMPUS and CHAMPV A on the                        discharged too early from the hospital                    unstable condition have been
    basis of their ICAHO.appved statu or                   and we also began to receive complaints                   transferred improperly, sometimes
    are deemed authorized providen based                   that patients did not understand their                    without Ihe consent of the receiving
    on Iheir Medicare-approved status. The                 rights as Medicare beneficiaries in cases                 hospital. Because Congress believed
    benefits to the DaD of requiring them to               where they were advised that discharge                    that this situation may have worsened
    be paid either under a DRG-                            was appropriate but they disagreed. On                    since Ihe Medicare prospective payment
    payment system or based onbased                        April 17, 1985, 42 CFR 466. 78(b)(3) was                  system for hospitals became effective.
                                   teasoable
    cost are lost, however, if the Hospitals              revised requiring all hospitals to provide                 the Report slales that the Committee
    can selectively participale in the                    Medicare beneficiaries with information                     wants to provide II strong assurance
   CHAMPUS and CHAMPV A                                   about PRO review, including their                         that pressure for greater hospital
                                progrms.
   Congress, in section 9122 of COBRA,                    appeal rights (50 FR 15331).                              effciency are not to be conslrued as
                                                                                                 In further
   now requires all Medicare hospitals,                   response to concerns about early                          license to ignore Iraditonal community
   beginning lanuary 1987, to participate In              discharges and lack of adequa                             responsibilities and loosen hisloric
   CHAMPUS or CHAPV A as authorze                         information. we began requiringe appeal                   standards. "    (H. R.   Rep. No. 99241 99th
   providers (i. e., they musl bil                       hospitals to furnish each beneficiary                      Cong., 1st Sess. 27 (1985). ) As a result of
   or CHAMPV A and accept          CHPUS                 upon admission a specifc statement                         Ihis concern, Congress enacted section
   CHAMPV A/CHAMPUS-determined                           developed by HCFA (i. e.. the " Important                 9121 of Ihe Consolidated Omnibus
   allowable amounl as payment in full-                  Message from Medicare ) telling a                         Budget Reconcilation Act (COBRA) of
   less applicable deductible, patient coat-             beneficiary of his rights to be fully                     1985, Pub. 1. 99272.
  share, and non covered items).                         informed about decsions affecting                         II. Leislation
  B. Participation in the Veterons                        Medicare coverage or payment and
  Administrotion (VA) Health Care                        about appeal rights In response to any                    A. Participation in CHAMPUS and
  Program.                                               hospital notices to the effect that                       CHAMPV A Programs
                                                         Medicare will no longer Cover the care.
    A retired veteran with a service-                    The "Message " we developed also                             Section 9122 of COBRA amended
  connecled disability is not required to                advises the patient what to do when he                    section 1866(a)(l) of the Act by adding a
  use Veterans Administration (VA)

                                                         receives. such a hospital statement                      new paragraph (I, which requires
 hospitals but may elect to receive                     how to elicit more information. Theand                    hospitals in the Medicare program 10 be
 services from " civilian
                          " providers and               requirements relating to the " Important                  participating providers of medical care,
 be reimbursed through CHAMS.                           Message from Medicare " were                              for inpatient servces only, under any
 However, once the VA has made or has                  . incorporated irttothe program                            hea/!h plan conlracted for under 10
 authorized paymenl for services related                operating Instrctions.
                                                                                                                       C. 107 or 1086 (CHAMPUS) or
 10 a service-connected disability, the                                                                           under 38 U.   C. 613 (CHAMPV A). in
 veleran is to obtain all services through                Congress. subsequently passed section accordance with admission practices
 the VA. In cases where the veteran                     9305(b) of the Omnibus Budget           . and payment methodology and amounts
                                                        Reconciliation Act of 1986
 receives servces from a non- VA                                                   (OBRA 86).     as prescribed under joint regulations
 hospital. either through choice or                    Now, as part of its participation                         issued by the Secretaries of Health and
 becDuse there is no available VA                      agreement with Medicare, each hospital                    Human Services. Defense and
 hospital which can provide the                        must agree to furnish each Medicare                       Transportation. This requirement
 necessary servces. the VA pays 

                                                       beneficiary with a notice, at or about the                 applies to services furnished to
 services based on the hospital'         far   the     time or admission. that explains the                      CHAMPUS and CHAMPV A
   As with CHAMPUS and              s charges.         patienes rights in detail.
                           CHAMP A,                                                                              beneficiaries admitted on or after
 when Ihey also paid the hospital'                     D. Responsibilities of Medicare                           January I, 1987;
charges. this tye of payment is                        Participating Hospitals in Emergency                        (Section 9122 of CODRA also required
expensive than payment on a more                       Cases                                                     that the legislation apply to all
prospective basis or based on                                                                                   agree men Is entered into on or after
reasonable costs. As a result, the VA is                  Hospitals that choose to participate in
                                                                                                                April 7. 1986. but this
selting up a national prospecive                       Ihe Medicare program agree in writing                                                 requirement was
                                                       to meet various requiremenls included                    deleted by section 1895(b)(6) of the Tax
payment system.
                                                                                                Reform Act of 1986 (Pub. L. 99-14).
  To alleviate hospital expenses for the               in section 186 of the Social Security Act
                                                       (the Act). Before enactment of Pub. 1.                   enacted October 22, 1986.
VA. Congress passed section 233 orthe
Veterans ' Benefit Improvement and                     99272 on April '/, 1986, the Act did not                B. Participation In the Veterans
Health- Care Authorization Act of 1986                 specifically address the issue of how                   Administration Health Care Program
(Pub. 1. 99576). This section req                     hospitals with emergncy medical
                                  uire
Medicare hospitals to be praticipatlng                departments must handle individuals                        Section 233 of the Veterans ' Benefit
providers of medical care to veterans                 who have emerency inedical conditions                    Improvemenl and Hea/!h- Care
                                                      or-who are      in   active labor.
                                                                                                               Authorization Act of 198.6        (Pub. 1. 99-

                                                                                                               576) was enacted on October 28.
                                                                                                                                                       1986. It
                      Federal , Register      Vol. 53, No. 116/ Thursday, June 16, 1988                Proposed Rules                  22515

 added a new paragraph (L) to section
 1866(a)(1) of the Act. It requires
 hospitals that participate in Medicarelo
                                                   Section 9121 of COBRA added a
                                                 para graph (i) tos'e   tion 1866(a)(1) of the
                                                 Act and added a new !Uction 1867     to the
                                                                                                 patient.
                                                                                                 interest of the health and safety of the
                                                                                                   (d) A hospital that fails to meet the
 be participating providers under 38             Act. Sectio!! 186(a)(1)(1) requires that a
     requirements of section 1867. of the
        C. 603. in accordance with     the       hospital. participating in the Medicare         Act-
 admissions practices. and payment               program mustagree to comply with the             (1) Is subject to termination of its
 methodology and amounts, prescribed             requirements of section 1867 of the Act         Medicare agreement or, at the option of
 under joint regulations issues to                 ' the extent' applicable. Section 1867        the Secretary of the Department of
 implement this section by the Secretary         provides t eJollowing:                          Health andHuman.Services (HHS),
 of HHS and the Administrator of the .              (!l1' A hospital with an emergency           suspension of the Medicare agreement if
 VA. This provision applies to services         . departniEmt must; within the capabilities
 after July 1,

 C.
                 1987.
 furnished to veterans admitted on or

      Statement of Beneficiary Rights
                                                 of its emergency department, provide an
                                                 appropiiate medical screening

                                                 examination to any individual who
                                                                                                 it knowingly and wilfully. or
                                                                                                 negligently. fails to comply with section
                                                                                                 1867. The suspension is subject to
                                                                                                 reasonable notice to the hospital and the
                                                 comes to the emergency department for           public and is for a duration that the
      The Omnibus Budget Reconcilation           examination or treatment of a medical
 Act of 1986 (OBRA 80) was enacted on                                                            Secretary determines to be appropriate:
                                                . conditon or of active labor and on             and
 October 21, 1986. Section 930S(b)(1) of          whose behalf the examination or
 ODRA 86 adds a new paragraph (M) to                                                               (2) Is also subject to civil monelmy
                                                  tratmcntis requested: the purpose of           penalties (which are in additon to those
 section 186(a)(1) of the Act. That               the examination is to determine whether
. paragraph puts current regulatory and                                                          provided under section 1128A of the
                                                  the. individual:has an emergency               Act) if it knowingly violates section
 administrative policies into statute and        medical conditon or is in active labor.         1867. The penalty cannot exceed $2S.

 requires a hospital that is eligible to         This requirement applies regardless of
 participate in the Medicare program to                                                          for each violation committed between
                                                 the individual's eligibilty for Medicare        August 1. 1986 (the effective date of the
 agree to furnish, upon admission. a
 beneficiary. or an individual acting on
                                                 benefits.                                       amendment) and December 21, 1987.         or
                                                   (17) ICan individual.
                                                                       regardless of
 his or her behalf. with a written                                                               $SO, OO for violations on or after
                                                 eligibilty for Medicare benefits. has an        December 22 1987. (The amount was
 statement of the beneficiary s discharge        emergency medieal conditon or is in .
 rights. The Statement must explain: .                                                           raised by section 400(a)(I). of the
                                                 active labor. the hospital must either          Omnibus Budget Reconcilation Act of
 . (1) The individual' s rights to benefits      provide for further examination and
 for inpatient hospital services and for         treatment (within Us capabilities) or           1987 (Pub. L. 100203). effective

 posthospital services under Medicare:                                                           December 22 1987. ) Each responsible
                                                 make an appropriate transfer of the             physician is also subject to a civil 

   (2) The circumstances under which             patient to sftothermedical facilty,
. the beneficiary wil and wil not be             unless the tratment or transfer is              money penalty of not more than $2S,
  liable for charges for continued stay in                                                       for each knowing violation ($SO. OO for
                                                 refused,                                        violations on or after December 22,
 the hospital: '                                  . (c) A hospital may not transfer a
   (3) The beneficiary s right to appeal         patient uness-                                  1987). A responsible physician may also
 denials of benefits for continued                 (1) (A) He or'he, or a legally                be excluded from Medicare
 inpatient hospital services, includinR the
     responsible person acting on his or her         participation for up to five years.
 practical steps to initate the appeal           behalf. requests the transfer. or (B) a             A responsible physician" Is a
      (4) The individual' s   liabilty for       physician. o r other qualified medical          physician within the meaning of section
 services if the denial of benefits Is                                                           1861(1')(1) of the Act (doctor of medicine
                                                 personnel when a physician is not
 upheld on appeal: and                           readily available, hall certified that the      or osteopathy) who is employed by. or
   (S) Additional information that the           medical benefits expected frm the               under contract with, the participating
 Secretary    specifes.                          tratment at the new facilty outweigh            provider and acting as such has
                                                                                                 professional responsibility for the
      Section 930S(b)(2) of OBRA 86              the increasedriks to the patient'
 requires that we prescribe the language         condition resulting from the transfer:          provision of examina tion or trea tment of
 to be used in the statement not later           and                                             the individual, or transfer of the

 than six months after the effective date          (2) The transrer lsan " appropriate           individual.
 of OBRA 86. After we have developed             trnsfer   , Bs- defined   below.                  (e) IC a hospital violates the
 the revised language for the statement             An. " appropriate transfer " is a            requirements of section 1867 and a
 required under OBRA, the hospital!!             transfer: (1) In which the receiving            patient suffers personal harm os a direct
 must begin compl 'ing with the                  facilty has available space and                 result, he or she may, in a civil action
 requirement to give the revised                 qualiied personnel for the treatment of         against the participating hospital, obtain
 statement to beneficiaries upon                 the patient and has agreed to accept the        damages for personal injury under the
 admission.                                      transfer and to provide appropriate             law of the State in which the hospital is
 D. Rpsponsibilties of Medicare                  medical tratment: . (2) in which the            located and may obtain such equitable
 Participating Hospitals in Emergency.           transfening hospital provides the
              relief as is appropriate.
 Gases                                           receiving facilty with appropriate                (f) Any medical facility that suffers a
                                                 medical records (or copies) of the              nnancialloss as a direct result of a
  The Consolidated Omnibus Budget                examination.andtreatment furnished at           participating hospital's violation of
 Reconcilation Act (COBRA) of 1985               the transferrng hospital: (3) in which the      section 1867 may obtain damages
 was enacted on April 7, 1986. Section           transfer is effected through qualified          available in a civil action against the
 9121 prohibits hospitals with emergency         personnel an transportation equipment.          participating hospital,. under the law of
 medical departments from refusing to            as. required. Including the use of              the State In which the hospital is
 treat medically unstable patients. It also      necessary and medically appropriate life        located. and may obtain such equitable
 contains provisions designed to halt the        support measures during the transfer:           relief as is appropriate.
 inappropriate transfers of these patients       and (4) that meets other requirements as          (g).No civil action under (e) and (f)
 to other medical facilties.                     the.Secretary may find necessary in the         above may be brought more than two
                 " "                                                                           , .




2216                    Federal Register             Vol. 53, No. 116 
      Thursday, June 16, 1988            Proposed Rules


years tleter the date of the violtltion with              offcials from the Department of Defense         since the hospital' s   refusal to admit
respect to which the action is brought.                   or Transporttion to notify us and we .          veterans violates 42 CFR 489. 26 of thcs
  (h) Section 1867 also contains                          would then discuss the Issue with the           regulations.
definitions of several other tens:                        hospital in hopes of resolving it. If it            The VA is developing the regulalionli
 emergency medical condition:'                            cannot be resolved, the HCFA regional           necessary   o implement the statute (e.g..
 participating hosptia1." " active         labor,"        offce would terminate the hospital's   , regarding payment methodology).
 to stabilize,         stabilized," and                   provider agrement under the provisions     These regulations would apply to
 transfer.                                                of 42 CFR Part 489, Subpart E. since the        Inpatient servicesJumshed to vetcranti
   (i) The provisions of section 1867 do                  hospital' s refusal to participate in the       admitted on or after July 1. 1987.
not preempt any State or local law                        CHAMUS or CHAMPV A programs
                                                          would violate 42 CFR 489. 25    of these        C. Statement of Beneficiary Rights
except where they directly confict.
                                                          regulations. .                                    We would add a new section. 42 Cl-'
II. Prvisions of the Prposed                                These revisions would apply only to           489. 27. to require participating hospitals
Regulations                                                inpatient hospital services   fuished to       that furnish inpatient hospital scrvices
A. Participation in        CHAUS and                       beneficiaries admitted on or after             to Medicare beneficiaries to give every
CHAP V progra                                              January i, 1987.                               beneficiary (or individual actig     on his

  We would revise! 489. 20, Basic                         B. Participation in the   Vets                  or her bealf) at or about the time of


commitments, to show that a                               Administration Health Ca    Program.            admisson the " Important Message from
partcipating Medicare hospital must                                                                       Medicare. " We would not specify the
                                                           To implement section 23 of Pub. 1..            contents of th " Message " in these
agree to participate in the CHAMPUS                        99576, we propose to add a new
and CHAPV A programs and accept                                                                           regutions. 88   the hospital wil not b
the CHPUS/CHAV A-determined
                                                           1 489.2. Hospitals do not enter into           responsible for writig it; we wil
                                                           partcipation agrments with the                 distribute to the hospitals the " Mesllage
allowable amount as payment in full in                     Veters Admistrtion program           a8        that the hospitals are to use.
accordance with a new 1 48. 25, which                      they do if they choose to parcipate in            We expect the " Important Message
incorporates statutory provisions.                         the Medicare program or the     CHAS           from Medicae" to be available before
  In a new section, 42 CFR 489. 25, we
would require Medicae participating
                                                           or  CHV       A programs. Instead. the         this rue becomes final. The la w is self.
                                                           VA authorize. payment for the                  implementi, and it requires the
hospitals to be paricipating providers in                  treaUOent, usually on a preadmi8.ion
 the CHAPUS and CHAPV A                                                                                   language for the statement to be
                                                           basis at a designated hospital that            prescrbed within six month of the
programs. We would require the
hospitals to comply with Deparuoent of
                                                           furnishes the serv. We would
                                                           a Medicre partcipati
                                                                                               reui
                                                                                      hospital to
                                                                                                          enactment of the legislation and
Defense regulations governing                                                                             distrbuted by hopitals within two
                                                           admit any veteran whose hospitalization        months after it is preacbed. This rule
 admissions practices and payment                          is authorized by the VA under 38 U.
 methodology and amounts for such                                                                         would merely conform the regulations to
                                                           60 (this includes emergency casee,              the statute.
 services. (Those reulations would be                      which may be authorized aft
 issued jointly by the Seetaries of                        admssion). The hospital would have to
                                                                                                             We have revised the earlier "
 Defense, Transportation and Health and                    meet the requirements . of 38 CFR Par 11
                                                                                                           important Message from Medicare " to
 Human Services:          CHUShas                          regarding admission practices and               inrporate the statutory requirements
 published a fmal rue tht contains
                        payment methodology and amounts.                and have solicited comments from major
 provisions for the implementation of a                                                                    beneficiar. and provider organizations,

                                                           This arangement would not afect
 DRG-based payment system, as                              hospitals ' need to meet all Medicare           such as the Gray Panthers. the
. mentioned earlier. ) We would continue                    hospital conditions of partcipation..

                                                                                                           American Hospilal Association and the
  the policy that hospitals participating in                  We would also revise 148. 20, Basic          American Association of Retired
  CHAUS and CHAVA that also                                 commtments. to require hospitals to            Persons. We have also sent the
  participate in Medicare must meet all                     admt veteran. whose admission is                Message " to both the Senate and
  Medicare conditions of participation.                     authorized under 38 U. C. 60 and to            Houae Select Committees on Aging. The
  Thus. if CHAPUS or CHPV A have                            meet the requirements of 1 489. 26-            imput from the various entiies have
  requirements for participating that differ                   We would also revise 148.                   been valuable in determining the final
  from Medicare s, Medicare                                 Termination by HCFA. to show that              version of the "Message
  requirements would have to be met.                        HHS may terminte any hospital that               We would require the hospital to
     We would require hospitals to accept                   fails to meet the reuirements                  obtain a separate signed
  the CHUS/ CHAPV A-detennined                              ! 489. 26. Thi8 would be inuded with           ackowledgement from the beneficiary
   allowable amount as payment in full for                  the paragraph (11) requirig   h08pital8 to     attestig to the receipt of the " Important
   the services provided to these                           participate in CHAUS and                       Message from Medicare " and to retain a
  beneficiares (less applicable deductible,                 CHAMPVA.                                       copy of the ackowledgement. Effective
  patient cost-share and noncovered                            As with the CHUS          and               with admissions on and after March 24,
  items).                                                   CHAPV A progrm.. we do not                     1986, peer review organizations (PROs)
    In addtion. we would add a new                          anticipate that Medica participating           have been required to monitor each
  paragraph (11) to 1489. 53. Terminations                  hospitals wil resist the requiment to          hospital to assure that the hospital
  by HHS. to show that a hospital that                       admit veteran8. Should one do 80, we          distributes " An Important Message from
  does not meet the requiements of                           would expect the appropriate . official of    Medicare " to all Medicare beneficiaries.
  1 489. 25 would be subject to possible                     the Veteran8 Administration to notify us      However. in practice. it has been very
  termination. We do not anticipate that                     and we would then discs8 the issue            diffcult for PROs to monitor the
  Medicare participating hospitals wil                       with the hospital in hopes of reolving it.    Issuance of " An Important Message
  refuse to accept CHAUS or                                      cannot be resolved, the HCFA
                                                             IC it                                         from Medicare " due to a lack of
  CHAPV A beneficiares under these                           regional offce woadd termnate the             docuentation (i. e.. the "Messagc " is
  proposed requirements. Should one do                       hospital' s provider agrment under the        given to the beneficiaries generally with
  so, we would expect appropriate                            proviaionl of 42 CFR Par 489, Subpar E.       leveral other infonnational materials
                                                                                                               . "




                          Federal Register-        Vol. 53. No. 116 / Thursday. June
                                                                                                       16. 1988 / Proposed Rules                            22517
       Upon admission but there is no record of
                                                       ! 489.24. which incorporates the                         We interpret this to mean, for example,
       the transaction). We have received              statutory requirements.
       complaints that in some instances                                                                        that if a hospital were to admit and then
       beneficiaries have not received the
                                                         b. We would add a new              489. 24,            transfer a patient before his or her
                                                      Special responsibilites of Medicare
        Message . were not aware that they            hospitals in emergency cases, to set                      condition is stabilized. except as
       received. it, and/or did not realize ilB       forth requirements for emergency cases                    provided below , it would be a violation
       significance. It has been suggested. and       for all hospitals that have provider                      of section 1867 of the Act. 

       we agree. that requiring the beneficiary       agreements with Medicare. We would                             iii. Transfers and Restrictions.
                                                                                                                                                           rf an
       to sign a separate. signed
                                                      require a hospital to take the following                  individual at a hospital has an
       acknowledgement attesting to the               measures.                                                 emergency medical condition that has
       receipt of the " Message " is a better           i. Medicpl Screening Requirement.
                                                                                                                not been stabilized or the individual is
       means of assuring tbat he or she knows                                                          For      in active labor, the hospital could not
                                                      any individuaL regardless of his or her
       that this is an important document that        eligibilty for Medicare, for whom                         appropriately transfer the individual
       should be revewed. Therefore, we are           emergency tratment or examination is                     unless one of the following conditions

   proposing that the hospital be required            requested, we would require a hospital                   exist:
   to obtain the beneficiary s separate,              with an emergency department to                             . The individual (or a legally

   signed acknowledgement attesting to the            provide for an appropriate medical                       responsible person on the individual'
   receipt of the " Message , and to retain a         screening examination within the                          behalf) requests the transfer.
   copy of the acknowledgement. We                    emergency department' s capability to                       . A physician (or other qualified
   believe that this is important both to             determine whether an -emergency
                         medical personnel if a physician is not
   assure that the beneficiary receves and           medical condition exists or whether the                   readily available in the emergency
  is sware of the signifcance of "                   individual is in active labor. as defined                 department) has certifed in writing that,
  Important Message frm Medicare " and               below. The examiations would have                         based upon the reasonable risks and
  to assure that the distrbution of it can           be conducted by individuals determined                    benefits to the individual and the
  be monitored. As is always the case                qualified by hospital by- laws and who                    information available at the time. the
  with a notice of proposed rulemaking.                                                                        medical benefits reasonably expected
                                                     meet the Medicare requirements of 42
  we seek public comment on this
  proposed requirement.
                                                     CF 482.55, which are that emergency                       from the provision of appropriate
                                                     services be supervised by a qualified                     medical treatment at the other facility
        We would also revise! 48. 20. Basic                                                                    outweigh the increased risks to the
  commitments, to show that a hospital               member of the medical staff and that
                                                     there be adequate medical and nursing                     individual' s medical conditon from the
  must distribute the " Important Message                                                                      transfer.
  from Medicare                                      personnel qualified in emergency care to
     We would add a new paragraph (12)               meet the wrUen emergency procedures                        We would consider a transfer to be
                                                     and needs anticipated by the facility.                   appropriate only if the receiving medical
  to 489. 53. Terminations by HHS. to
 show that a hospital failng to meet the               We would allow hospitals maximum                       facilty has available space and
 requirements of ! 489. 27 may be                    flexibilty in their utilzation of                        qualified personnel for the treatment of
 terminated. Whether ornot HHS would                 emergency care personnel by not                          the individual and has agreed to accept
 terminate a provider would depend on                including specific requirements                          trnsfer of the individual           and to provide
 HCFA' s judgement as to the scope of the            concerning education or crdentials for
                  appropriate medical treatment. The
 failure and the hospital' s corrction or           individuals conducting emergency                          transferring hospital would have to
 plan for corrction of the failure. We do           medical exanations. This policy is                        furnish the receiving medical facilty
 not anticipate any hospital opposition to          consistent with the specified intent of                   with timely appropriate medical records
 the requirement that the " Message be              the conditons of paticipation (51 
                       (or copies) of the examination and
 distributed. We believe we already" have           22010; 42   CF Part 48).                                  tratment provided by the transferrng

 full cooperation from hospitals.                      ii. Necessary Stabilizing Treatment                    hospital. The patient would have to be
   These revisions would apply only to              for Emergency Medical Conditions and                      accompanied by qualified personnel
 Medicare admissions beginning after we             Active Labor.  If the individual has an                   during the transfer; transportation
 have distributed " An Important Message            emergency medical condition or is in                     arrangements would have to include the
 from Medicare                                      active labor, the hospital would have to                 use of necessary and medically
                                                    provide either further medical                           appropriate life support measures.
D. Hospital Emergency Care                          exmination and trabnent to stabilze                         Although the statute authorized the
  The revisions to the regulations we               the medical codition or tratment of                      Secretary to find that the transfer must
 are proposing would be revisions and               the labo or tnansfer the individual                      meet " other requirements " in the
additions to 42 CFR Part 489, Prvider               appropriately to another medical                         interest of the health and safety of
Agreements under Medicare. and                      facility. We would not hold the hospital                 patients transferred, we are not at this
revisions to 42 CFR Part 100, Program               responsible if the individual. or a legally              time proposing to adopt any. We do
IntegritY-Medicare, and Part 100, Civil             responsible person acting on the                         however specifically invite public
Money Penaltes and Assessments.                     individual' s behalf. refuses to consent in              comment concerning any " other
Basically, the provisions would parallel            writing to the   fuer examination and
                                                   treatment or the appropriate transfer to
                                                                                                             requirements " the Secretary should
the statute.                                                                                                 consider adopting regarding the health
                                                   another hospita. 
                                        and safety of emergency department
1. Requirements for Hospitals with                   Under these provisions. the hospital is                 patients being transferred between
Emergency Care Departments                         responsible for trating and stabilzing
                                                                                                             medical facilities.
   a. We would revise 42 CF 489. 20,               any individual, regardless of eligibilty
                                                   for Medicare. who presents himself or
                                                                                                                iv. Definitions. We would include in
. which discusses basic commitments, by                                                                      42 CFR 489. 24 the following definitions
 adding a new paragraph to require                - herself with an emergency pondition at
                                                                                                             as included in the statute. without
hospitals with emergency departents                 the hospital. and for providing such care                interpreta tion:
as part of their participation agrement,            until the condition ceases to be an
                                                                                                                  Active labor " means labor at a
to agree to comply with the new                   - emergency or until the patient is                        time when delivery is imminent, there is
                                                    properly transferrd to another facilty.              inadequate time to effect safe transfer to
  .'
  . "




22518                Federal Register / Vol. 53, No. 116 / Thursday. June              16, 1988 / Proposed Rules

another hospital before delivery. or a        1867(e)(3) of the Act to make it clear that     participating hospitals that receive Hill-
transfer may pose a threat to the health      providers did not have to execute a new         Burton construction grants and loans to
and safety of the patient or the unborn      - written agreement specifically to              provide emergency medical services to
child.                                        obligate them to comply with section            any person who resides (or, in the case
  . An " emergency medical condilon
           1867. Rather, the hospitals are obligated
     of some hospitals. works) in the
means a medical condition manifested           to comply with the requirements of             hospital' s designated health service
by acute symptoms of sufficient severity       section 1867 by virtue of the statute and      area. HCFA would of course inform
(including severe pain) that the absence       their current agreements.                      complainants of the outcome of its
of immediate medical attention could             We would add a definition of                 investiga tions.
reasonably be expected to result in: (a)        participating hospital" and the                 HCFA would notify State Medicaid
Plncing the patient's health in serious        remaining statutory definition, that of        authorities, State licensing bodies, the
jeopardy: (b) serious impairment to             responsible physician , to 42 CFR             Offce of Inspector General. appropriate
bodily functions: or (c) serious               Chapter V (Parts 100 and 1003). since          Peer Review Organizations and the
dysfunction of any bodily organ or part.       these terms are used in conjunction with       Offce of Civil Rights concerning all
     To stabilze " means. with respect         monetary penalties, which is under the         complaint investigations and all
to an emergency medical conditon, to           jurisdiction of the Offce of Inspector         termina tion actions.
provide the medical treatment of the           General. We discuss the definition of
condition necessary to assure. within                                                           HCFA would determine whether the
                                                responsible physician " below under           hospital knowingly and wilfully. or
reasonable medical probabilty. that no          Civil Monetary Penalties,"
material deterioration of the condition is                                                    negligently, failed to comply with the
                                                  We invite public comment regarding                                489. 24 based on
likely to result from the transfer of the      all definitons.
                                                                                              requirement of

individual from a facilty.                                                                    evidence of (i) inadequate treatment or
                                                c. We propose to amend 42 CFR Parts
      Stabilzed" means. with respect to                                                       treatment not being provided: (ii)
                                              489. 1001 ane 1003 to provide for types of
an emergency medical condition. that no                                                       patients in unstable condition or in
                                               sanctions that would be applied by the         active labor not being properly
material deterioration of the condition is     Department. as appropriate: 

likely, within reasonable medical                                                             transferred as defined in        489. 24(dJ(2):
                                                  i.   Resolution of Allegations and
probabilty. to result from the transfer of   . Determination of Liabiliy.     If the
                                                                                              (Iii) the hospital' s actions. or lack of
an individual from a facility.                 evidence available establishes that a          actions, causing a patient's or infant's
      'Transfer '' means the movement          hospital knowingly and wilfully, or            death or serious or permanent
(including the discharge) of a patient to      negligently. failed to provide the             impairment to a patient's bodily
outside a hospital' s facilites at the.        appropriate screening and treatment or         functions: or (iv) a hospital' s actions
direction of any person employed by (or        transfer as explained above, it would be       placing a patient's health in serious
affliated or associated with. directly or
     subject to either termination of its           jeopardy. HCFA would determine the
indirectly) the hospital. but it does not      provider agreement by HCF A or                 hospital negligent if the hospital and its
include moving a patient who has been          suspension of its provider agreement by        personnel failed to exercise care Ihat
declared dead or wh leaves the facilty         the OIG' in accordance with section            should normally be supplied to a patient
without the permission of any person           186(b) of the Act. In addition. the OIG        experiencing an emergency medical
responsible for directing transfers.           can also impose civil money penalties          condition or active labor as defined in
  For the purpose of these definitions.        (CMPs) for knowing violations.                   489. 24(b).
the term " hospital" means a Medicare             When the Department receives Ii               ii. Termination of a provider
facility certifed as a hospital with its       complaint. or any information or               agreement by HCFA.          HCFA'
own provider number.                           allegation. to the effect that a Medicare      termination authority under this
  We would not define " participating          hospital did not appropriately comply          provision is designed so that quick
provider" in Part 489. This is because 42      with the emergency medical screening.          action may be taken to protect the
CFR 40. 202 defines terms applicable to
       stabilzing, treatment or transfer
             Medicare program. its beneficiaries and
all of 42 CFR Chapter IV and already           requirements. HGF A would. upon                other individuals- from any potential
defines " provider  . A provider by            receipt of all available information and       harm. The termination of a provider
definition agrees to participate in            evidence. conduct suffcient review to          agreement would be the initial action
Medicare. The agreement is written and         determine whether the complaint falls          contemplated against a hospital that
requires the provider to fulfll1:ertain        within the jurisdiction of section 1867. 
     knowingly and wilfully. or negligently.
obligations. Until recently. the existing      so. HCFA would consider the complaint          failed to meet the requirements set forth
version of the provider agreement              a substantial allegation and would             in   489. 24. This section would allow for
specified provider requirements through        investigate the allegation thoroughly.         the termination of the hospital'
a series of references to sections of the         HCFA would send each complainant a          provider agreement under Medicare in
law and regulations applicable to these        letter acknowledging receipt of the            accordance with section 1866(b) of the
issues: however the COBRA changes              complaint. advising him or her of his or       Act. The termination requirement would
made it necessary to update these              her rights to consider independently the       be contained in         489. 24 as paragraph
references to include the new                  civil enfortement provisions of section        (e). (The authority to terminate has been
provisions. In December 1986. we               1867 and stating that it wil refer the         delegated from HHS through the HCFA
revised the provider agreement forms           complaint to other agencies if during the      Administrator to HCFA Regional
and sent the revised forms to all              complaint investigation. it determines         Offices.
participating hospitals to sign. The           that the matter falls under the                  HCFA would revise 42 CFR 489. 53.
revised forms were accompanied by a            jurisdiction of other agencies. Thus,          Termination by HCFA. to include in
letter explaining the new provisions of        HCFA would refer a complaint to the            paragraph (b) failure to comply with (he
law that affect the obligations of             Offce of Civil Rights if it determines         requirements of 
  489. 24 as a mandatory
providers. (Although not all agreements         that a hospital- may be in violation of the   cause for termination of a provider
have been returned signed to us. section       Hil- Burton Subpart G Community                agreement. HCFA would also revise
1895(b)(4) of the Tax Reform Act of 1986       Service regulations at 42 CFR                  paragr ph (c) to state that. if it
(Pub. L. P9514) amended section'               124. 603(b)(l .which require Medicare          determines that a hospital is in violation
                       Federal Register / Vol. 5;, No.- 116' / TJrursday. June 16. 1988 / Proposed Rules                                           22519

of 9 489. 24(a) through (dl, HCFA would           through 100. 115.         give notice to the          . In addition to tennination or

consider the violation to pose an                 hospital and the public; the suspension             suspension of the provider ngreement, if
immediate and serious threat to the               would become effective fifteen days                 a hospital knowlingly violales the
health and safety of persons presenting           after the date of the notice. The hospital          requirements concerning screening.
themselves to the hospital for                    would be able to appeal the suspension              treatment and transfer, OIG could also
emergency services and would                      before an administrative law judge of
              impose a civil money penalty of not
terminale the hospital' s approval for            the Offce of Hearings and Appeals of                more than $50. 00for each violation.
Medicare participation within 2 days of           the Socal Security Administration. The                . OlG could also impose a         civil'
the delermination unless the violation is         suspension would be for a minimum of                money penalty upon each " responsible
corrected.                                        30 days. .                                          physician " of not more than $50. 000 for
      In those instances in which HCFA              Tbe notice to the hospital would                  each violation. In addition, the DIG may
determines that a hospital is in violation        specify                                             exclude the physician from Medicare
of the requirements of the Act. it wil                . The legal and Cactual basis Cor the
          participation for up to five years. A
initate termination action. When that             determination;                                      responsible physician is a physician
aelion is resolved. HCFA wil refer the                . The effective       date;                     within the meaning of section 1861           (rJ(l)
    e 10 the OIG for possible impositon                                                               of the Act (doctor of medicine or
of CMPs. If the OIG. upon futher                                               suspension
                                                      . That the duration of the
                                                  would be for a minimum of 30 days and               osteopathy) who is employed by. or
inves:ip,Cllion. discovers past violations
that did not form the basis of the                that during the suspension period. the              under contract with the hospital. who. in
tennination aclion. it may decide that a          hospital. must demonstrate that further             that capacity. had professional
sanction is warranted and could                   incidents wil not occur or the
                     responsibilily for the provision of
exercise its authority to impose a                suspension wil continue;
                           examination or treatment for the
suspension against the reinstated'                    . That in addition to denial of
                individual. when the violation occurred.
provider. (See section D. c. below.
                                                  payment for Medicare claims, claims for             A physician may be employed by, or
      In instances where HCFA finds no            Medicaid payments wil             not be paid for   under contract with. a hospital even
violation. and therefore does not take an         the care of Medicaid recipients during              though the physician receives no
action. the closed case would stil be             the period the provider agreement is                compensatiun from the hospital for
transmitted to the OIG. If the OIG, upon          suspended;                                          furnishing medical servicp.s.
reviewing the caSF!        fie.   believes that       . That the provider wil         have the          For purposes of this provision. a
furthp.r case development is walTanted,           opportunity to be reinstated after the              physician would be considered under
it would be free to do so. If OIG'                suspension. in accordance with                      contract with the participating hospital,
invl?stigation indicates that there are           U 100. 105      through 1001. 114;                  and therefore a responsible physician
additional violations that are not.                 . The payment policy in effect during             within the context of these regulations,
renected in HCFA' s case fie. it would            the suspension: and                                 if he or she has a written or oral
refer the new case information back to              . The appeal rights of the hospital.              agreement 10 take professional
HCFA with a recommendation that                      For hospitals paid under the                     responsibilily for providing
HCF A tenninate the hospital's provider           propetive payment system. we                        eXRminations or treatment in thf!
agreement balled on the new findingB.             propose to pay for all covered services             hospital's emergency room for
  Whether or not HCFA takes a                     furnished to Medicare beneficiaries                 individuals seeking emergency mf!dir.al
termination oction on a given case. all           admitted before the suspension is                   care, or for the proper transfer of these
invesligated cases wil be referred to the-        effective, including payment for a                  individuals whether or not the physician
OIG for possible imposititm of CMPs.         maximum of 30 days after the                             receives compensation from the hospital
  iii. Suspension of a provider'           . suspension becomes effective for those                   for providing the servicF!s.
ag/'l1l1ent by the DIG Tennination and.           cases that qualify as day outliers. On                In addition. if the provision of
SlIspenSlon of provider.
                                  Ageements are   the other hand, we woud not make any                emergency medical services is shared by
mutually exclusive remedies: a given              payment for inpatient hospital servicp.s            more than one responsible physician.
violation or a group of violations of 
           furnished to patients who are admited               each responsible physician could be

section 1867 of the Act may give rise to          on or afer the effective date of
                   held liable and a civil money penalty up
termination or suspension. but not both.          suspension.                                         to the maximum amount. as wp.1I as
However. if HCF A has proposed to 
                   For hospitals reimbursed under the              exclusion from the Medicare program
terminate, or has terminated. the                 reasonable cost system, no payment wil              for up to five years, could be imposed
provider agreement of a hospital based            be made for services prvided to                     against each responsible physician for
on one or more specifc violations of
section 1867, the OIG is not precluded
from suspending that hospital' s provider
                                                        iod.
                                                  persons admitted during the suspension

                                                                          oC admission is not
                                                                                                      each violation.
                                                                                                        We would revise U 1003. 100.
                                                                                                      1003. 102. 1003. 103 and 103. 105   to rener.
agreement at a later date if. upon further            Note: The date

investigation. DIG determines that ther           signifcant    Cor    reasonable cost hospitals.     these provisions.


are    other   violations of section 1867           We are proposing to add a new                       Determination of penalty amounl.
indicating that (1) the pattern of                11001. 202 to reflect the above policy                We propose to establish in 42 CFR
dumping is more widespread than                   concerning suspension and we are                    1003. 106 three specific criteria and one
HCFA initially believed, or (2) the               proposing to make the necessary                     general crih;rion that we would consiclF!r
additional instances of dumping are so            technical changes to U 100. 211 and                 in determining the penalty amount­
egregious that the penalty of suspension          1001. 221                                             . The degree of culpability of (he

is appropriate.                                      We prose to add a new section.                   hospital and the responsihle physicians.
   When it is determined that a                   11001.23. to give the provider                        . The seriousness of the individual'

hospital' s provider agreement should be          procedures to follow when it is                     conditon in seeking emergp.ncy medicol
suspended, the GIG would. in
                     suspended and wishes to be reinstated               services.
accordance with its notice and appeals            into the Medicare proram.                             . The prior history of the hospital and
procedures set forth in It 100. 100                 iv. Civil Monetary Penalties. General.            the responsible physicians in failing to
  22520                  Federal Register        Vol. 53, No. 116'            Thursday. June , 16. 1908'          Proposed Rules

  provide appropriate emergency medical               courts chiarer direction that such relief
  services or appropria te transfers. .               should be within the courts regular equitable        Documentation of findings. by adding a
                                                      powers and should, be granted for the                new paragraph (d) that would require
    . Other matters required by   justice,                                                                 State survey agencies to inform HCFA
    We specifically welcome comment on                purpose of remedying tlie violation or
  the application of these and other                  deterrng subsequent violations. (H. R. Rep.          of credible reports of violations of
 possible criteria. and on the inclusion of.         No. 453. 99th Cong.. 1st Sess. 476 (1965).              489. 24.
 specifc aggravating and mitigating                     We do not believe it necessary or                  IV. Regulatory Impact Statement
 factors, to be considered in levying                appropnate to revise the regulations to
 penalties under this provision.                                                                           A. Introduction
                                                     reflect this provision.
    We believe that the authority to                                                                         . Executive Order (E. ) 12291 requires
                                                        vi. Preemption of State law. 
 The
 assess civil money penalties against the            legislation provides that it does not                 us to prepare and publish an initial
 responsible physician as well as the                preempt State or local law except where               regulatory impact analysis for any
 hospital wil be a strong incentive for              there is a conflct with the statutory                 prop?sed regulation that meets one of
 both the physician and the "hospital to             provision. Since Federal law ordinarily               the E. O.. criteria for a " major rule
 respond to the medical needs of                                                                                                                  ; that
                                                     supersedes State law where there is a                 is. that would be likely to result in: an
 individuals with emergency medical                  conflct, it is not necessary to include               annual effect on the economy of $100
 conditions and women in active labor.               this provision in regulations.                    milion or more; a major increase in ,
    HCFA would refer appropriate cases                                                                 costs or prices for consumers. individual
 for possible money penalties to the OIG,            2. Responsibilties of Hospitals
                                                                                                       industries, Federal. State. or local
 while at the same time HCFA wil                     Receiving Improperly Transferred
                                                                                                       government agencies. or geographic
 authorize the Medicare State survey                 Individual.
                                                                                                       regions: or. significant adverse effects
 agency to conduct a complaint                          Prliminary findings of study being             on competition. employment.
 investigation if warranted.                         conducted by the OIG have confirmed               investment, productivity. innovation. or
  The OIG would have to prove by a                   that a number of patients in unstable             on the ability of United States- based
preponderance of the evidence that the              conditon have been transferred                     enterprises to compete with foreign-
hospital or the responsible physician or            improperly and that the cases have not             based enterprises in domestic or export
physicians. or both, failed to provide              been reported to HCFA. Because we                  markets. In addition. we generally
emergency medical tratment as                       need to know about   01/ improper                  prepare a regulatory flexibility analysis
required by section 1867 of the Act. This           transfers, we are proposing to add a
provision would be in 42 CFR 1003. 114.                                                                that is consistent with the Regulatory
                                                    new paragraph (g) to    489. 20 to require         Flexibility Act (RFA) (5 U.
  The OIG would notify hospitals and                a hospital that suspects it may have
                                                                                                                                          C. 601
responsible physicians assessed civil                                                                  through 612). unless the Secretary
                                                    received an improperly transferred                 certifies that a proposed regulation
money penalties in accordance with 42
CFR 1003. 109, which includes hospital
                                                    individual to report to HCF A and to the           would not have a significant economic
                                                    State survey agency. To be in                      impact on a substantial number of small
and physician appeal rights. We would               compliance with this requirement, the
revise that section to require that the                                                               enlities. Also. section 1102(b) of the Act
                                                    receiving hospital would have to report           requires the Secretary to prepare a
notice would include a description of the           any suspected incident within 72 hours
episode for which the penalty is                                                                      regulatory impact analysis if this
                                                    of its occunce. This requirement                  proposed rule may. have a signifcant
proposed and why the penalty is being               would appear in manual instructions.
assessed.                                                                                             impact on the operations of a
  We would also make necessary                         We propose to include in 
      489. 24 a      substantial number of small rural
                                                    paragraph (f) that would require a                hospitals. Such an analysis also musf
technical changes to !         1003. 100,           hospital to report promptly patients it
1003. 106, 1003. 109 and     1003. 114 and add
                                                                                                      conform to the provisions of section 603
to  1003. 101 definitions
                                                    reteives who were transferrd in                   of the RF A. For purposes of the RF A, we
                                of
 participating hospital" and                        suspected violation of ! 489. 24(d).              treat all providers as small entities.
                                                       We aillo propose to add a paragraph
 responsible physician , as discussed                                                                 B. Impact on CHAMPUS. CHAMPVA.
a hove.
                                                    to ! 48. 53(a) to show that failure to
                                                    report improper transfers may subject             and V A programs
   v. Civil enforcement
  An individual who suffers personal                the receiving hospital to termination of            This proposed rule would require
harm. or a medical facilty that suffers a           its provider agrement.                            hospitals to provide inpatient hospital
                                                       In those instances in which HCF A              services to individuals who have
financial loss. as a direct result of the
hospital' s violation of a requirement in           determines that a hospital is in violation        insurance covera e under CHAMPUS.
42 CFR 489. 24. may bring a civil action,           of  489. 20(g), we would initiate                 CHAMPV A, and V A programs. Further.
in an appropriate Federal district court.           termination action.                               the CHAMPUS/CHAMPV A- determined
against the hospital for damages and                3. State Surey Agency Responsibilities            allowable amount from these programs
other equitable relief as appropriate. No                                                             must be accepted as payment in full
                                                     , The preliminary findings of the OIG            (less applicable deductible. patient cost-
civil action may be brought more than               study also identifed incidents of
two years after the date of the violation.                                                            share and noncovered items). The effect
                                                    improper transfer being reported to the           of these two requirements is the result of
The Federal district court wil apply the            State survey agency that were not then
law of the State in which the hospital is                                                             the statute, not this proposed rule.
                                                    reported to HCFA. .
located. According to the Conference                  To assure that we are aware of all              C. Impact on Hospitals
Committee Report. the committee                     instances of improper transfer. we also
included the language concerning other                                                                  The provision requiring a Medicare
                                                    propose to require the State survey               participating hospital with an organized
equitable relief as appropriate as '                agencies to report promptly any credible
directive to the courts:                                                                              emergency department to provide
                                                   complaintA (thRt is. complaints that are           emergency services within the
   (Tlhe (House of Representativesllanguage        specific and detailed enough to be                 capabilities of the hospital to any
allowing courts to grant ' other appropriate       investigated) related to violations of
relief' was also modified to read ' other                                                             individual with an emergency medical
                                                   section 1867 of the Act..Therefore. we             condition and to any woman in active
equitable relief as appropriate . to give the      intend to ' revise 405. 1903.                      labor would ensUre that everyone in an
                      Federal Register              Vat   53. No. 116            Thursday. June          16. 1988             Proposed Rules                   22521

emergenc:y situation wil be,        stabilzed         view  oC the PHS experience we continue                       42 CFR Part 1003

before discharge or transfer. or the                  to antiCipate tbat incidents wil be
hospital may be tenninated or                         sporadic and relatively jsolated. We
                                                                                                                      Administrative pracllce and
suspended from the Medicare program.                                                                                procedure. Archives and records. Grant
                                                      expect this provision basically to                            progrnms""social programs. Maternal
This provision is also the result of the              Increase the incentives Cor hospitals to
statute an d not this proposed rule. and                                                                            and child health. Medicaid. Medicare,
                                                      avoid such inCidents thus improving                           Penalties.
we have been actively. enforcing the                  emergency care Cor uninsured
statutory requirements. Further. it                   individuals.                                                   Title 42 of the Code of Federal
should be noted that currently; under 42                                                                            Regulations would be amended as
crn 124. 60. et seq.. of the PUblic Health
                                                      E. ConclusIOn.                                                Collows:
Service (PHS) regulations. the nearly
                    For these reasons, we have                                  A. Chapter IV is amended as follows:
five thousand hospitals ' nationwide that             determined that a regulatory impact                             1. Part 405. Subpart S is amended as
received Hil Burton construction. grants              analysis is not required. Further. we                         follows:
and loans arereqliired to participate In              bave determined. and the Secretary
the Medicare program if eligible to do                certifieS'. that tbis proposed rule would                     PART 405- FEDERAL HEALTH
so. Under these regulations. hospitals                not have a significant economic impact                        INSURANCE FOR THE AGED AND
are required to provide emergency                     on ' a substantial number oC small entities                   DISABLED
medical services to any person who                    and would not have a signifcant impact
resides (or. in the case of Some                      on the operations of a substantial                              a. Tbe authority citation for Part 405.
hospitals. wQrks)in the hospital'                     number of small rural hospitals.                              Subpart S is revised to read as follows:
designa ted health service. area.                     Therefore. we have not prepared a                               Authority: 42 V.      C. 1302. 1395f. 1395x.
  We believe the great majority                       regulatory flexibilty analysis.                               1395bb. 1395cc, 1395dd. 1395qq. 1395rr. and
hospitals do not inappropriately transfer                                                                           139511.
or refuse to treat patients with limited              V. Paperwork Reduction Act
                                                                                                                      b. Section 405. 1903 is amended by
ability to pay for services. The aggregate                Sections 405. 1903.       489. 20   and 489. 27           adding a new parngraph (d) to read Of!
economic impact of this provision                     this proposed rue contain inCormation                         follows:
should be minimal, primarily affecting                collection requirements. As required by
only those hospitals not already under a              the Paperwork Reduction Act                oC   1980 (44       405. 1903 Documentation of findings.
Hil- Burton agreement. those not                                C. 350). we have submitted a copy
complying with their agreements. or                   of this proposed rule to the Executive                          (d) If the State agency receives
those hospitals that as a matter of policy

                                                      Offce   oC Management and Budget                              credible information (that is,
have interpreted their obligations                    (EOME) Cor its review oC these                                information that is specific and detailed
narrowly and refused servces .                        requirements. Otber organizations and                         enougb to be investigated) to tbe effect
individuals not specifically covered by               individuals desiring to submit comments                       that a bospital has violated          489. 24    of
the Hil- Durton requirements (i. e.. those            on the InCormation collection                                 this part. the State agency is to' report
not living or working in the given                    requirements should follow the                                the inCormation to HCFA promptly.
hospital' s designated health serVce                  instrctions in the ADDRESS section.
area).                                                                                                                2. Part 489 is amended as follows:
   We 11150 are proposing to require each             VI. Response to Comments                                        a. The authority citation for Part 489 is
hospital to retain a separate. signed                                                                               revised to read as follows:
                                                             Because    oC the large number
ilcknowledgement from the beneficiary                                                                                 Authority: Secs. 1102. 1861. 1864m. 18M.
                                                      comments we receive on proposed
attesting to the receipt of the " Important           regulations. we cannot acknowledge or
                                                                                                                    1867. and 1871 of the Social Security Act (42

Message from Medicare " and a copy of                                                                                   C. 1302. 1395x. 1395aa. 1395cc. 1395dd.
the " Message " itself. Although tbis
                                                      respond to them individually; However.                        and 1395hh). and sec. 602(k) of Pub. 1. 9
would create a slight increase in                     In preparing the final rule. we wil                           (42 V. C. 1395ww note).
hospital administrative costs. it is not              consider all comments received timely
                                                      and respond to the ' maj9r issues in the                        b. The table     oC   contents is amended
expected to affect Medicare or Medicaid                                                                             by adding         489. 24. 489. 25. 489. 26. nnd
program expenditures significantly.                   preamble to that rue.
                                                                                                                    469. 27   to Subpart B to read as Collows:
Hospital cost increases would be limited              List of Subjects
to obtaining and retaining the                                                                                      PART 489-PROVIDER AGREEMENTS
                                                      42 CFR Part 405

beneficiary s acknowledgement.                                                                                      UNDER MEDICARE
However. we believe that over the long                   Administrative practice and
run more inCormed patients should                      procedure. Health Cacilties. Health
reduce the necessity to fie complaints.                proCessions, Kidney diseases,                                Subpart B-Essentlals of Provider
ofC-settng any increased costs.                        Laboratories, Medicare. Nursing homes,                       Agreements
D. Impact on Patients                                 . Reporting and recordkeeping
                                                      requirements. Rural areas. X-rays.                            See.
  After the 1979 establishment           oC   the
above-mentioned Hil- Burton                           42 CFR Part 485
requirement, very few community
                                                                                                                    489. 24 Special responsibilties of Medicare
                                                        Health Caciltles. Medicare, Reporting                            hospitals in p.mergency CRses.

service c:omplaints hnve been fied with               and record keeping requirements.                              489. 25 Sper:al requirements concerning the
PHS' Offce Cor Civil Rights. although                                                                                    CHAMPVS and CHAMPV A proRrams.
numerO!.JR criticisms      bave been reported         42 CFR Part 489                                               489. 26 Special requirements concr:minl!
in tbe mp.dia concerning admissions Cor                      Heaith facilties. Medicare.                                 veterans.
eme cncy services. We believe that                                                                                  289. 27 Beneficiary statp-menl of diRCho!,c
establishment of an additional. broader               42 CFR Part 1001
                                                    rights.
requirement and an additional avenue 
                   Administrative practice and                                  c. In ! 489. 20. the Introductory text is
complaint may result in reporting oC a                 procepure, Fraud, Heallh facilties.                          republished nnd the section is amended
larger number oC Incidents. However. in                Health proCessions. Medicare.                                by adding paragraphs (f). (g), (h). (i), and
                         APPENDIX C

Steps In Procedures for Response to Complaints of Patient Dumping
                         """"""""""""""""""""""''''''          ''"""""""""""""""",",:"""""",




HCFA PROCEDURE FOR RESPONSE TO

 COMPLAINTS OF PATIENT DUMPING

                                                                                HCFA REGIONAL OFFICE




                                                                                           Warrants Investigation?

                                                                                                                    :g.ncy (SA)
                                 illlllllliIJilil;llllilillillll
                                                                    1111                                      t;t
                                                         Medical review                            SA Investigates       OIG FO input
                                                         if necessary within 5 days                                      if necesary
                                                                                                   SA forwards findings
                                                                                                   within 2 days
                                                                                                  after completion


                                                                                                  HCF A review

                                                                                                  of SA findings




                                                                                                Accept SA finding?


                                        Initiate re- revlew
                                                                                                            .18
                                                                                               Hospital In compliance?

            Close case                                                                             Implement termination procedure
                                                                                                   Refer to OIG


                                                                                                   Hospital alleges

                                                                                                   compliance before

                                                                                                   effectIve date of
                                                                                                   termination?




                      Hospital stil out of
                                                           Direct SA
                                                    to Resurvey

                                                                          compliance?
                                                                                          Itl                             Termination
                                                                                                                          takes effect




  Do not terminate.
 Monitor & resurvey
    within 60 days       111:Illli:i
                                                                   ....:llllii1llli//I. t
                                  llllllllll1I!I ......

       ~~~         '...... ..................'   ',   '.........................




OIG PROCEDURE FOR RESPONSE TO

COMPLAINTS OF PATIENT DUMPING


                                                                              OIG FIELD OFFICE




                                                                          HCFA has investigated?

       HCF
                                                      11111
                                                                                   Further Investigation
                                                                                   if necessary




                                                                               Viola tion   occurred?


                                                                                              IIII         Close case


                               Does hospital represent
                                         threat to patients?
                                          Has no termination
                                         action been taken?

 Otf         f:t
                   III                                aw
                                                                                             tfIC.
     .........
     .......
      :\:"    .................
              """""''''''
           .......
          ....             ',..... ''''
                        . .....
                """""""""""""""""'""
            ........,.........
                ....::.:
                    .,.........,
               .......-....
                    ........
     ......................
     ::""   -..............-.....   "....
                                  ......
                            .......
                             "..         ......
                                        :"p!
                                     ~~~~    ........
                              .....,-,........
                                         ..........    ....
                                                  .......
                                                  ...",.....
                                 .......................
                                              ......,............,
                                ..................    . "'
                                          '".,..........
                                     ........
                                        ....  .....
                                              ....
                                                 ...
                                                 ....   ....  ...................
                                                          ............
                                                           .....,,-".
                                                    ...................
                                                               ...,...
                                                               ,,'.....
                                                                 ...,-,
                                                     """'"''''''''''''''''
                                                     ....
                                                     .
                                                     .   .......
                                                           ...
                                                          ...     ..."               ..........
                                                                                         ....
                                                                                     ,'...    ...............
                                                                                          ..................
                                                                                                          ~~~~
                                                                                                          ""
                                                                                                .............            ......................
                                                                                                                         ....
                                                                                                                      ......
                                                                                                              ................
                                                                                                                    .........
                                                                                                                      ''''''
                                                                                                           .....................
                                                                                                           ............... .....
                                                                                          ...:.,.........................
                                                                                        ............
                                                                                                ...........................
                                                                                                 ;;.;'.......
                                                                                                ....
                                                                                                ...                             .... ..........
                                                                                                                         ..":, ....   ....
                                                                                                                                      ....
                                                                                                                            ~~~"""'''' ~~~~
                                                                                                          "" '"''''''''''''''''''''''''''''    ""''''
                                                                                                                                        .. .........
                                                                                                                                             ......
                                                                                                                                              ....... .........
                                                                                                                                                  .............
                                                                                                                                                """""""""""""'"
                                                                                                                                                  ".......,....

                                                                                                                                            ...........          ....'
                                                                                                                                                      ..............
                                                                                                                                              .... ..........
                                                                                                                                                       ........
                                                                                                                                                      ....     ...           ........
                                                                                                                                                                     .....,....,-..
                                                                                                                                                       ".... ''''''''''''''''''
                                                                                                                                                              ...................
                                                                                                                                                               .................        .......
                                                                                                                                                                                     ::,......
                                                                                                                                                                                          .......
                                                                                                                                                                                   ...........
                                                                                                                                                                                   ....
                                                                                                                                                                  '''''''''''.''''''      ...     ~~~ """
                                                                                                                                                                                           ..' :\::
                                                                                                                                                                                          ......
                                                                                                                                                                                          .:,,   ::::    .........
                                                                                                                                                                                                      . .....        ...... . ...
                                                                                                                                                                                                         '''' ..................
                                                                                                                                                                                                       ...,.............
                                                                                                                                                                                                        .......




  OCR PROCEDURE FOR RESPONSE TO
    COMPLAINT' S OF PATIENT DUMPING
                                                                                                                                   OCR REGIONAL OFFICE


                n........,-,...


        f#mjy"' HQF.
                                                                                                Establish jurisdiction
                                                                ::ii'




                                                                                                    Determine status
                                                                                                                        in HCF



                            Obtain                                                                        ptQr' :.PP                              J:mty.:" m'..:'                                           Document status
                            case da                                                                                                                                                                         In HCF A
                                                                                                                                                                                    i!i.::




                                                                              Determine whether complaint
                                                                                    investigation or                                                  compliance
                                                                             review is warranted based on

                                                                                                                                                                                                        OCR' s determination as to
Status and results of HCFA
and/or OIG inve.tigatlon                                                f-          Whether complainant consents
                                                                                    to OCR' s investigation                                                                            f-               continued potential for
                                                                                                                                                                                                        life-threatening denial

                                                                                                                                                                                                        of emergency medical services




                IIJlJall'li;;                                                                                                                     ::.?F9d# ffplii
                                                                                                                                                  :i!!::.i
                                                                                                                                                          lilliMI
                                                                                                                                                                                              #.:f,v                lii:\:....
                                                                                                                                                                                                                ijI:0;:j.0 0j..



                                                                                                     Notiy HCFA & OIG
                                                                                                                  of findings

 APPENDIX D


Agency Comments
                                   "----                    '-----                                       '------.) - '-,


                                                                           Hc0
                                                                                                               ::'

                                                                                 .A"'     :CT-          .L /

                                                                                        Heajth;   are .v
               DEPARTME1\T OF HEALTH'       HUMAN SERVICES                        . ,;r     i'Li ng Admirli

                                                                           He? f L";
                                                                                              Lj(
.l"."I':
                                            OCT I 9   100                               1vemorandum
    Date
              Will i am L. Roper
   Frvn       Admi n i   strator
               DIG Draft Report: " Patient Dumping after COBRA: U. S. Department of

           ect Health and Human Services Response to Complaints, " OAI- 12- 88- 00831

              The Inspector General

              Offi ce of the Secretary

              We have reviewed the draft report entitled II Patient Dumping after COBRA 

              The report made four recommendations to the, Department, Office of Civil
              Rights (OCR), and HCFA. The recommendations are designed to improve
              coordination and handling of cqmplaints. We are jn basic agreement with

              them.  Our specific cpmments on each are attached for your consideration.

              Th ank you for the opportun   i ty to comment on th is   report.


              Attachment
                                                                                  DIG
                                                                                  AIG-A
                                                                                  AIG
                                                                                  AIG.
                                                                                  ADM
                                                                                  OG GIG
                                                                                  EX SEC
                                                                                  DATE SEN               b/f)()




                                                                                                          C"
                                                                                                                     00 .




                                                                                                          cp
              Comments of the Health Care Financing Administration

             on the OIG Draft Report: " Patient Dumping after COBRA:

               s. De artment of Health and Human Services Res onse to
                          Comp aints, " OAI- 12- 88- 0083



OIG Recommendations

The Department should seek to configure responsibilities of the components

in order 
 o provide a unified response to a single complaint, or series of

complaints involving a single hospital, so as to improve response and the
efficient resolution of complaints.


HCFA Comments

We currently notify OCR of forthcoming investigations. We will contact

OCR and OIG to pursue the goal of coordinated investigations and whenever

practical , combine investigative teams. OCR staff are currently welcome
   accompany the State agency (SA) surveyors. Integration of HCFA and OCR

activities, however , must not delay the investigation. SAs are required

to investigate alleged dumping within 5 workdays of notification.

OIG Recommendations

HCFA and OCR should pursue a legislative initiative to align their
authorities under Hill- Burton and COBRA and to establish a comn
departmental definition as to what constitutes patient dumping under the

relevant provisions of those statutes.


HCF A   Comments

We will meet with OCR to consider a legislative initiative to align our

authorities under Hill- Burton and COBRA. OCR is currently responsible for
violations of Hill- Burton which do not also violate COBRA (e.g.,
discriminatiQn against certain types of patients in non-emergency

situations). OCR should continue to be responsible for these types of

cases; there is no rationale for HCFA involvement.

OIG Recommendations

In order to develop an efficient and consistent response to complaints, a

set of gu ide 1 i nes shou 1 d be deve loped by the Department wh i ch out 1 i nes
detail what actions can be taken (termination, suspension , civil money

penalties, etc.    ) in response to varying levels of violations (isolated
incident , pattern of abuse, evidence of willful negligence, etc.
Page 2 - OIG Draft Report



HCF A   Comments

We initiate termination action if there     a single incident , not as a

punitive action , but because our experience indicates that this usually

resu 1 ts in swi ft   correct i on   of the prob   1 em. Our   intent is to as sure
adequate care in a safe environment which this approach accomplishes. We

will gladly participate in a cooperative effort to develop a common set of

guidel ines.
01 G Recommend at ion

A set of timeframes for investigation and resolution of complaints should

be deve loped , and a screeni ng mechan ism (such as the SA) used to focus

investigative resources on more productive cases.


HCF A   Comments

HCFA has set deadl ines for each step in the development of an

investigation and uses the SA for immediate screening of allegations.
fully support this recommendation.

             '-'    ".
                   ':'''                                                      ,,           --
                                                                                           /.. - ,
                                                                                              . ..''       -'   ;:         /-

                                                                                                                                /r
                                                                                                                                         +- ;:

                                                                                                  I rc..


                                                                                                                     1.
                                                                                                                                , / C­
                           DEPARTME T OF HEALTH &. HUMAN SERVICES                                                         Office of the Secretary
                                                                                                --j.f-nv



                                                                                                                          Washington ,     DC 20201
                   MEMORANDUM


                   DATE          October 5, 1988


                   FROM          Audrey F. Morton
                                  Director           CLS qD

                                 Office for 
   Civil Rights
               SUBJECT:          OCR Comments:      OIG Draft Report: " Patient Dumping
                                                    After COBRA: U. S. Department of Health

                                                    and Human Services (HHS) Response to

                                                    Complaints " OAI-12-88-00831
                                 Richard P. Kusserow

                                 Inspector General

                                 Office of the Inspector General




                                 The subj ect Office of Inspector General (OIG) draft

                                 report has been reviewed for comments as requested in

                                 your August 9, 1988 , memorandum. Thank you for the

                                 opportuni ty to present the Office for Civil Rights

                                 views on this report.


                                 Your stated purpose for the inspection was to determine

                                 how the various components investigate and respond to

                                 complaints of patient dumping, the problems encoun­

                                 tered , and the changes needed to correct any past
                                 difficul ties.  The report, which analyzed the HHS
                                 investigative procedures in patient dumping utilized by

                                 the Office for Civil Rights (OCR), the Health Care

                                 Financing Administration (HCFA), and the OIG , crys­

                                 tallizes some of the major problems confronting HHS

                                 staff involved in investigating complaints of patient

                                 dumping.    We believe that the identification of these
                                 problems is a positive step in the Department'

                                 continuing effort to eliminate patient dumping. There
                                 are ,however , a number of observations made in the
                                 Findings Section that we feel are inaccurate and

                                 indicate a need for further clarification. Our
                                 comments, as they apply to the various findings or

                                 recommendations presented in the draft report, are

                                 provided below.


 DIG

w I . AI'J
 AIG.

 OGC'IG

 EX SEe 


 DATE. '-1.' t..
                                                                        9- 130        GB51
                                                                          :U K

                                                                                                   'I ''''

                                                                 ....,\ L -        "1,                 J"".
Page 2




           Statement of                   Finding:
           Procedures for the investigation and referral of

           dumping complaints are relatively new or are


           evolving.                                                   still
          Under this finding, the report discusses the "
          instructions "                                       new OCR

                           concerning dumping         While
          true that OCR issued additional guidance in April
                                                             cases.
                                                                 it is

          to its regional offices , OCR regional offices were 1988   not

          wi thout written investigative procedures for use in
          conducting patient dumping investigations.
          the report repeatedly refers to the newness of    Al though
                                                                OCR'

          instructions , this assessment is inaccurate. It does
          not reflect the fact that OCR has investigated
          dumping complaints under its existing investigative

          procedures since                        1980. It
                                        should be noted that the
          primary work of OCR is to conduct complaint investi­

          gations and compliance reviews. Consequently, OCR
          always . had an Investigative Procedures Manual which the   has
          regional offices utilized to investigate complaints

          filed with this office under all of our
                                                                  authorities.
          OCR began conducting compliance reviews of Hill-Burton

          assisted facilities and investigating all complaints

          filed under the community services regulation pursuant

          to a Memorandum of Understanding with the Heal 

          Resources Administration (HRA). Al though HRA retained
          authori ty for the final disposition of complaints and

          post-investigative enforcement activities
                                                    , OCR

          conducted the investigations. Patient dumping    issues

          were a part of a significant number of those investi­

          gations. On December 8 , 1980 , OCR was delegated full

          responsibility for the community service
          January and later in June 1981 OCR issued program.   In
                                                     comprehen­

          sive manuals on Hill-Burton investigations and these

          manuals continue to be used by our investigative
          Prior to the COBRA enactment , HCFA received many
              staff.
          complaints involving patient dumping that were

          investigated by OCR , and in some instances HCFA had an

          active role in various stages of those investigations.
                                                 .. .




Page 3




          Statement of Finding:


          OCR issued its only instructions to its regional

          offices in April 1988



          Again , the reference to the newness of OCR instructions
          is not accurate. The April 1988 OCR guidelines were

          issued in response to regional requests for more

          specific guidance on conducting compliance reviews. The

          priori ty status given to dumping cases was not a result
          of OCR' s lack of instructions to regional offices or

          inexperience in investigating patient dumping issues.
          The recent priority attached to patient dumping cases

          is a direct result of the recent number of HCFA/OIG

          referrals to OCR and the need to coordinate with OIG

          and HCFA regarding reporting procedures and to ensure

          accuracy in reporting.


          As stated previously, procedures for investigating

          patient dumping cases have been in place since 1981.
          Historically, these cases have been investigated not

          only under the Hill-Burton authority, but also under

          Title VI of the Civil Rights Act of 1964 and Section

          504 of the Rehabilitation Act of 1973 when appro­

          priate.   The recent issuance of guidelines for
          handling patient dumping matters was an effort

          to refine and enhance procedures for investigations .

          patient dumping complaints and compliance reviews.
          OCR' s April 1988 guidelines provide for consistency in
          approaching the issue of patient dumping and uniformity

          on a national level in attaching the same priority to

          these cases. As a result, the April guidelines provide

          more extensive guidance for compliance reviews while

          providing only refined guidance in handling complaints.
          You will note that the guidance provided on complaints

          primarily focuses on the in-take processing of

          referrals/receipts and reporting requirements.
          Complaint investigation activity continues to be based

          on OCR' s existing Investigative Procedures Manual as

          well as the Hill-Burton guidelines provided during 1980

          and 1981.


          Under this same finding, the comment was reported on

          page 8 from one regional office that
     OCR ... relied
          solely on HCFA' s investigation to determine if a case

          has merit because it lacks the necessary medical

          expertise. " This statement is not accurate.
Page 4




          OCR regional offices have routinely used medical

          experts from numerous sources , particularly in

          investigating AIDS
, and other Section 504 compl

          as well as in prior investigations of " Baby Doe
                                                            aints,
          complaints. Our instructions to regional offices to

          obtain HCFA case files prior to initiating OCR

          investigations   is illustrative of our efforts to avoid
          duplicating efforts and unnecessarily burdening the

          recipients.    This practice has nothing to do with OCR'
          lack of access to medical experts.


          In addition , staff comments on page 8 regarding

          reliance on HCFA investigations because of HCFA' s
          better enforcement authority are vague. To clarify, we

          note that there are instances where complaints have

          been closed because OCR determines that HCFA has

          obtained the same remedies that OCR would have pursued.

          This , again , is an effort to avoid duplicating efforts
          and unnecessarily burdening the recipients. It also
          should be noted that a number of complaints have been

          closed with the instructions that future compliance

          reviews be opened. For example , in one of the regional
          offices subj act to your inspection , nine (9) complaint

          referrals from HCFA were closed as complaints and

          opened as compliance reviews, and ten (10) complaints

          were closed because HCFA obtained remedies that OCR

          would have pursued. The process of converting

          complaints into compliance reviews ensures that

          questionable practices regarding the recipient'
          obligation to treat patients, emergent or otherwise

           re investigated by OCR through its compliance review

          process.
          The statement on page 8,
                In addition , those instructions detail how a

               dumping complaint should be investigated and

               indicate that a full on-site investigation should

               be conducted. The information to be gathered by

               the OCR investigator , according to the Model

               Investigative Plan includes:...
          is not accurate. The April guidelines do not provide

          details for investigating a complaint. The guidelines
          instruct on 
 processing complaints , i. e. , attaching

          priori ty: assigning a special case docket number: using

          specific case information management system codes; and

          determining the appropriateness of a compliance review.
Page 5




          The guidelines refer staff to standard OCR procedures

          when        investigating a complaint         The model investi­

          gative plan referred to              is the plan for compliance

          reviews; there 
            is no investigative plan for complaints

          included              in the April guidelines.


          Statement of 'Finding:
          There are different conceptions within the Department

          as to what constitutes patient dumping. For example

          OCR' s instructions indicate that an additional set of
          authori ties   may be brought to bear on hospitals that

          engage  in   patient dumping   (page 9)

          OCR is aware that COBRA covers circumstances in which a

          patient is denied needed emergency services on a basis

          other than an economic factor since COBRA requires

          screening of all patients and treatment of all patients

          in need. However , the existence of additional

          authori ties enforced by OCR makes it mandatory that we

          investigate patient dumping cases under. them when the
          complainant alleges disc imination on a basis

          prohibi ted by a specific law. We believe that the
          enactment of Section 9121 of COBRA was not intended to

          diminish the enforcement tools available under other

          authori ties , but to broaden the enforcement mechanisms

          to fit the newly identified instances and bases of

          discrimination related to economic factors and termed

          as " patient dumping.    We also believe that the
          inference that patient dumping can only occur where

          COBRA applies is not supportable. We believe that

          Congress was aware that other legislation existed to

          cover this issue on bases other than economics. Where

          patterns exist that show individuals are being denied

          appropriate emergency treatment based on factors other

          than those of economics , we believe that what is

          defined as patient dumping is       practiced.
                                                      Where a
          complaint does not involve a Hill-Burton facility, and

          the complaint alleges a patient dumping act on the

          basis of race , handicap, etc. , OCR will investigate the

          issue whether the act is termed patient dumping or

          not.   For the sake of consistency in our approach to
          this investigatory issue , we are convinced the

          application of the term patient dumping is appropriate.
          As our procedures require, such a complaint will be

          referred to OIG and HCFA because COBRA may apply as

          well.
 Page 6




           OCR must investigate under the appropriate authority.
            In so doing, the definition of patient dumping is not

           expanded to issues beyond that which COBRA intends.
           Some of OCR' s investigations may focus on more than

           financial considerations by virtue of the complaint

           allegation , but we do not believe this poses a problem
           in the handling of patient dumping complaints. In
           fact , the existence of the additional authorities
           broadens the spectrum of instances and bases where

           patient dumping may be identified. Recent studies

           indicate that there  is a growing pattern of minority
           males being " dum ed" in disproportionate numbers from
           emergency rooms. In these cases , Title VI , Hill-

           Burton and COBRA may apply. The remedies available

           under these authorities. together can have a much
           greater impact on this group of beneficiaries than the

           remedies available for the limited incident of denial

           of emergency services to an individual , as would be the

           case under Hill-Burton and possibly COBRA.
           It is stated on page 9, " We did not find any evidence
           in the three regions we visited that a complaint of

           emergent patient dumping has been pursued under these

           authori ties. " The fact that the regional offices

           visi ted were not regional offices that have
           investigated patient dumping issues under other

           authori ties should not be interpreted as an indication

           there is a different definition being applied , or that

           such investigations have not been conducted. OCR'

           conception of patient dumping issues has nothing to do

           with the authority under which the investigation will

           be conducted. Whether a case is classified as patient

           dumping depends entirely on the circumstances described

           in the allegation and whether the allegation meets the

           standard definitions currently defined as patient

           dumping by OCR , HCFA , and the OIG.

           The existence of additional authorities wi thin OCR

           that may apply to patient dumping should not be viewed

           as tools available to be brought to bear unjustifiably

           on hospitals. For example , in an attempt to avoid

           duplicative investigations by agencies wi thin the

           Department , regardless of the authority involved,

         Patient Transfers: Medical Practice as Social Triage

David U. Himmelstein , MD , Steffie. Woolhandler , MD , MPH
                                                            , Martha
Harnly, MPH , Michael B. Bader , MD , MPH , Ralph Silber , MPH

Howard D. Backer , MD , and Alice A. Jones , MD. AJPH May 1984
Vol. 74 , No.

Page 7



          OCR guidelines                        nstruct our regional offices to review

          HCFA cases prior to                           initiating   investigations. When
          is        clear that the violation has been remedied and the

          remedy        is what OCR would seek , then a duplicate

          investigation will not be initiated under
                                                                                            any
          authori ty. However , where a complaint alleges

          discrimination on the basis of that which 

                                                                                            is    not
          covered     the HCFA investigation , OCR investigates

                                in

          considering the data gathered by HCFA , to avoid

          duplicating HCFA' s efforts and to ensure that all

          alleged patient dumping actions are properly

          investigated , whether under Hill-Burton or other
          authori          ties.
          This process cannot be circumvented by the notion that

          a definition of patient dumping has any effect on the

          authori ty under which OCR investigates--the authority

          is dictated by the allegations of the complaint.

          Statement of Finding:


           OCR' s dumping procedures do not include instructions
          to the regional offices on how to approach non-

          emergency patient dumping,....    (page 9)

          This omission exists so that the definition is not

          expanded to non-emergent patient dumping instan ces
          since such cases continue to be included in our routine

          case loads. POlicies and procedures already exist to

          cover the handling of these investigations. We are

          unable to see the benefit to such a reference in

          this report.



          statement of Finding:


          The OCR of ten lacks jurisdiction and has not yet taken
          enforcement action on dumping referrals from HCFA in

          the three regions studied   (page 14)


          Eleven complaints are referred to as " pending " in OCR.
          A more accurate statement would be that eleven

          complaints have 
 investigations in progress  This would

          be consistent with the term used in Exhibit 2

          describing the stages of HCFA and OIG investigations.
Page 8




           Also, this comment implies that no changes have

           resul ted from OCR' s investigations , and this 

           case. OCR' s procedures reflect our obligation tonot   the

                                                             is
                                                                seek

           voluntary compliance whenever possible. The mode of

           voluntary compliance is a method widely endorsed by the

           current administration to remedy violations.


          OCR has found this method to be very effective and

          successful in OCR negotiations with recipients.
          example , during the period of your inspection , in For
                                                               one
          of the regional offices there were two patient dumping

          complaints closed with corrective actions secured.
          This section of the repor
 should be revised to reflect

          the full range of OCR inves igative  activi ies.
          RECOMMENDATIONS:

          The Depar ment should seek to configure responsi­

          bili      ties of the componen s in order to provide a
          unified response 
      o a single complain
          complain s involving a single hospital ,,so oras
                                                           series of

          improve response and 
      he efficient resolution of

          complaints (pages 18 and 19)

          OCR agrees   hat a unified approach
                                                  o respond

                  ient dumping allega ions will improve the response

          and efficien resolution of complaints. We look
          forward to working wi h o her componen

               reng hening the Department' s enforcementoefforts
                                                           accomplish

                                                                  in
          this vi      al area. We continue to suppor j oin
          investigations where feasible. As you noted, in our

          guidance on pa ient dumping to the regional offices, we

          recommended that OCR staff coordinate investigative

          activi ies with HCFA when possible. However , we do not
          agree tha OCR should delegate its responsibility       for
          investigating patien dumping complaints under Hill-

          Bur on to HCFA.
          While it is true that COBRA has a more detailed

          statutory base and enforcement is stronger under that

          authori ty, we do not believe the enactment of COBRA was

             ended to diminished the enforcement tools available

          under other authorities. Both the community service

          assurance and civil rights laws are intended to ensure

          equal opportunity to all programs or activities funded

          by the Department.

Page 9




          OCR has had considerable experience                                                                                               with
                                                 issues.
                                                                                                                   in dealing 


          patient dumping 
                                                Patient                       dumping    are a     issues

          part of our overall                                Hill-Burton                            authority and are

          closely interrelated to other
                                                    nondiscrimination                                laws
          that are enforced by OCR.                                                  The       unified                    approach
          recommended to respond to one or more complaints filed

          against   single hospital will not necessarily be

          enhanced by a potential splintering of OCR' s authority.

          Many cases that have Hill-Burton aspects also are filed

          under         Section             504 or Title VI.                                      The converse                         is   also
          true.
          We believe that the                                pursuit                   of defined                        coordination
          between components    the best approach , and one that

                                                        is

          will be equally beneficial to all                                                                concerned. It will
          ensure the desired improved response and the efficient

          resolution of complaints.



          RECOMMENDATION:

          The HCFA and OCR should pursue a legislative initiative

          to align their authorities under Hill-Burton and COBRA

          and to establish a common departmental definition as to

          what constitutes patient dumping under the relevant

          provisions of those statutes.  (page 18)

          The report contains examples on page 18 used to reflect

          the need to align authorities under Hill-Burton and

          COBRA , and to reflect the lack of conformity in a
          common definition of emergent patient dumping. OCR

          does not consider the examples used reflective of

          problems in the respective           For instance , a
          comment . included in the report states:
                                                                                 areas.
                       For example, lack of medical certification

                      attesting that the benefits outweigh the risks for

                      transfer of an unstable patient is a violation of

                      COBRA       , but not of Hill-Burton. This lack of
                      conformi ty only diminishes the Department'

                      enforcement authority in this area.


          We note that while Hill-Burton does not require that a

          physician sign a certification before a hospital may

          transfer a person who has an emergency medical

          condi tion              that has not been stabilized or who is 


          active labor , the regulation does contain equally

          effective requirements to ensure that patients are not

          arbi trarily transferred or discharged in an unstable
                                                         , "





Page 10




           condi tion. Hill-Burton emergency provisions require

           that appropriate medical personnel determine that

           discharges or transfers will not subj ect the person to

           substantial risk of deterioration in medical condition.
           There  is no analysis or evidence presented to

           illustrate how the differences in the requirements of

           COBRA and Hill-Burton diminish the Department'

           enforcement authority in this                          area.
                                                     With OCR retaining
           authori ty to investigate complaints under Hill-Burton

           the Department has additional assurance that patient

           dumping complaints that include allegations which

           cannot be reached under COBRA may be reached by OCR

           under Hill-Burton. or additional authorities enforced by

           OCR. Such would be the case for complaints against
           children s hospitals that do not receive Medicare funds
           for kidney dialysis    non-hospitals " that provide
           emergency services , and other faci. li ties that are not
           Medicare participants that provide emergency services.
           Again ,the report , on page 18 , refers to patient
           dumping in a non-emergent setting. The report
           indicates:
                        AS noted earlier , OCR has authority under Hill-

                       Burton over patient dumping in a non-emergent

                       setting. The authority of OCR in this area does

                       not overlap with HCFA' s authority under COBRA and

                       this type of violation should not be included in

                       the common definition of emergent patient

                       dumping. Further , if OCR wishes to bring a
                       discrimination action under Title VI or Section

                       504 for actions that may or aay not involve

                       emergent patient dumping, it may do so on its own

                       accord , outside the Hill-Burton/COBRA framework.
           The statement appears to suggest that OCR has expanded

           its definition of patient dumping. If this is the

           intent of the comment, then accompanying evidence

           included in the report would be . beneficial to support

           such a position. OCR' s def ini tion of patient dumping
           includes situations .in which a hospital that has the
           required service treats an emergent patient, and

           instead of admitting the person as an inpatient , either

           transfers the patient to another hospital for admission

           as an inpatient or discharges a patient that should

           have been admitted as an inpatient on a ground that


           prohibited by law.   Our investigative experience has
           shown that too often these patients are still in an

           emergent state , that most are discharged or transferred

           based on race , national origin , or the inability to pay
Page 11




            for services , and that many such instances have

            resul ted inthe death of individuals. This is a
           blatant form of patient dumping that certainly the

           Department would not wish to consider removing from the

           realm of patient dumping in a revised definition.

           We do not see that any problems are identified in this

           section which result from the present alignment of

           authori ties under Hill-Burton and COBRA , or from the

            lack of conformity in a common definition " of emergent

           patient dumping set forth in the examples.

           RECOMMENDATION:

           A set of timeframes for investigation and resolution of

           complaints should be developed , and a screening

           mechanism (such as the State agency) used to focus

           investigative resources on more productive cases

           (page 19)



           This section references OCR investigative t
            newly in place in OCR.
 This is l.naccurlreLeframes as
                                                          These

           investigative timeframes have been in place in OCR

           since May 1980 when the Department became the


           discrepancy should be corrected.Services.
           Department of Health and Human            This
           As the final report is prepared , I hope that

           consideration will be given to the OCR comments

           provided herein.   We look forward to discussions wi
           HCFA and OIG to consider the merits of acceptance or

           rej ection of the recomendations contained in the OIG
           report. We agree that the development of an efficient

           and consistent response to complaints , and that the

           development of Departmental guidelines are required to

           ensure that consistent actions are taken in regard to

           substantiated cases.


           Again , thank you for the opportunity to provide our
           comments. If there are questions , please have your

           staff contact Patricia L. Mackey at 245-6118.

